<html>
<title> - NOMINATIONS OF SANTANU K. BARUAH; GEORGE M. GRAY; LYONS GRAY; H. DALE HALL; AND EDWARD McGAFFIGAN, JR.</title>
<body><pre>[Senate Hearing 109-787]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-787
 
 NOMINATIONS OF SANTANU K. BARUAH; GEORGE M. GRAY; LYONS GRAY; H. DALE 
                    HALL; AND EDWARD McGAFFIGAN, JR.

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

SANTANU ``SANDY'' J., BARUAH, TO BE ASSISTANT SECRETARY OF COMMERCE FOR 
                          ECONOMIC DEVELOPMENT

 GEORGE M. GRAY, TO BE ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH AND 
              DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY

  LYONS GRAY, TO BE CHIEF FINANCIAL OFFICER, ENVIRONMENTAL PROTECTION 
                                 AGENCY
        H. DALE HALL, TO BE DIRECTOR, FISH AND WILDLIFE SERVICE

    EDWARD McGAFFIGAN, JR., TO BE MEMBER OF THE NUCLEAR REGULATORY 
                               COMMISSION

                               __________

                           SEPTEMBER 22, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


                    U.S. GOVERNMENT PRINTING OFFICE
28-852                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 22, 2005
                           OPENING STATEMENTS

Burr, Hon. Richard, U.S. Senator from the State of North Carolina     1
Domenici, Hon. Pete V., U.S. Senator from the State of New Mexico     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     5
Smith, Hon. Gordon H., U.S. Senator from the State of Oregon.....     3

                               WITNESSES

Baruah, ``Sandy'' Santanu K., nominated to be Assistant Secretary 
  of Commerce for Economic Development...........................     6
    Committee questionnaire......................................    32
    Prepared statement...........................................    16
    Responses to additional questions from:
        Senator Baucus...........................................    21
        Senator Bond.............................................    30
        Senator Chafee...........................................    20
        Senator Clinton..........................................    22
        Senator Jeffords.........................................    17
        Senator Voinovich........................................    29
Gray, George M., nominated to be Assistant Administrator, Office 
  of Research and Development, Environmental Protection Agency...     6
    Committee questionnaire......................................    50
    Prepared statement...........................................    41
    Responses to additional questions from:
        Senator Boxer............................................    45
        Senator Clinton..........................................    44
        Senator Jeffords.........................................    42
Gray, Lyons, nominated to be Chief Financial Officer, 
  Environmental Protection Agency................................     8
    Committee questionnaire......................................    66
    Prepared statement...........................................    64
Hall, H. Dale, nominated to be Director, U.S. Fish and Wildlife 
  Service........................................................    10
    Committee questionnaire......................................    84
    Prepared statement...........................................    79
    Responses to additional questions from:
        Senator Baucus...........................................    81
        Senator Chafee...........................................    82
        Senator Jeffords.........................................    80
McGaffigan, Edward, Jr., nominated to be a Member of the Nuclear 
  Regulatory Commission..........................................    11
    Committee questionnaire......................................   104
    Prepared statement...........................................   100
    Responses to additional questions from Senator Jeffords......   101

                          ADDITIONAL MATERIAL

Letters of support for nominee H. Dale Hall:
    Association of California Water Agencies.....................    94
    California Waterfowl.........................................    92
    Midwest Association of Fish and Wildlife Agencies............    96
    Office of Natural Resources Trustee..........................    95
    Oklahoma Farm Bureau Legal Foundation........................    93
    Western Association of Fish and Wildlife Agencies............    97


 NOMINATIONS OF SANTANU K. BARUAH; GEORGE M. GRAY; LYONS GRAY; H. DALE 
                    HALL; AND EDWARD McGAFFIGAN, JR.

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Chafee, Thune and Jeffords.
    Also present: Senators Burr, Domenici and Smith.
    Senator Inhofe. Senator Burr.

STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM THE STATE OF 
                         NORTH CAROLINA

    Senator Burr. Mr. Chairman, thank you very much. Senator 
Jeffords, thank you for this opportunity.
    It is my pleasure to be here today to introduce Lyons Gray 
of Winston-Salem, NC and to enthusiastically endorse his 
nomination to be Chief Financial Officer of the Environmental 
Protection Agency.
    Lyons currently heads the EPA's Environmental Financial 
Advisory Board, an outside panel that seeks to lower costs, 
increase investment and build capacity by creating partnerships 
with State and local governments and the private sector to fund 
environmental needs.
    Lyons served for more than 12 years in distinction in the 
North Carolina General Assembly. As the co-chair of the House 
Finance Committee, he was responsible for a State budget of $14 
billion, almost twice the annual EPA budget.
    During Lyons' tenure in the State House, he was known on 
both sides of the aisle as a friend and defender of the 
environment. A lobbyist for the Sierra Club who worked with 
then Representative Gray in Raleigh recently commented in the 
Winston-Salem Journal that Representative Gray was usually a 
positive voice for the environment in the General Assembly.
    Lyons also served for 9 years on the State Board of the 
Nature Conservancy and as a member of the Board of Visitors at 
the Nicholas School of the Environment at Duke University.
    More recently, Lyons served as the president of the 
Downtown Winston-Salem Partnership, an organization that helped 
promote economic development in our shared hometown of Winston-
Salem. Through Lyons' vision, the Downtown Partnership has 
worked with the city and other city organizations to 
successfully revitalize our downtown with the help of EPA 
programs including brownfield clean-ups and redevelopment plans 
that have helped to bring life back to areas of our downtown 
that once housed furniture and textile manufacturing 
businesses.
    Lyons comes to this position at a time when the EPA will be 
facing challenges in the wake of Hurricane Katrina and likely 
Hurricane Rita. Lyons is known for his vision, his leadership 
skills and his ability to bring diverse groups together to find 
solutions. His knowledge of how State government implements 
Federal funds will be greatly needed as we confront the 
environmental cleanup of the Gulf Coast.
    Mr. Chairman, I look forward to the committee favorably 
reporting Lyons' nomination and I will be honored to cast my 
vote for him when the nomination is considered on the full 
Senate floor.
    Senator Inhofe. Thank you very much, Senator Burr.
    I agree with your remarks and I appreciate your coming here 
to share them with us.
    Senator Domenici, did you want to do an introduction? What 
we are doing is for members who want to do that, to accommodate 
their schedules, go ahead and do that before we do our opening 
statements.
    Senator Domenici. Mr. Chairman, I want to do what best 
accommodates you.
    You have before you H. Dale Hall, Director of the U.S. Fish 
and Wildlife Service?
    Senator Inhofe. That is correct.
    Senator Domenici. Is it appropriate to speak in his behalf?
    Senator Inhofe. Yes, it is.

STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM THE STATE 
                         OF NEW MEXICO

    Senator Domenici. I see him there in the front row and I am 
not going to bother you and the distinguished Ranking Member 
very much because this gentleman doesn't need an awful lot of 
introduction.
    First of all, he is a professional but I know him because 
he has been in my State for a few years, so I have watched him 
under very difficult circumstances. When there are very 
divergent interests at play and inability to work with them 
ends up in a log jam, nobody wins, everybody loses, I found 
that he was able to remain true and loyal to the laws, in 
particular the one causing extreme confrontation, the 
Endangered Species Law, in our State a river and a minnow. He 
has been working for quite a bit of time with everybody, 
working on that. I must say not on his own but a tribute to 
this office with him as a leader, we have resolved most of them 
without extreme litigation.
    In addition, I have found the people who work for him just 
think he is terrific. I think that means something. He is at a 
very high level.
    The only thing I ask is why in the world he would leave 
Albuquerque to come up here and he isn't sure.
    Senator Inhofe. That is because there was not a slot open 
in Tulsa.
    [Laughter.]
    Senator Domenici. I think you will never be sorry to 
quickly send him to the Senate floor and I hope we don't have 
any delays there. We need this position filled. Both of you 
know that.
    Senator Inhofe. Senator Domenici, let me say to you that 
Mr. Hall came to Oklahoma when we had a hearing on a program, 
the Partnership in Wildlife Program that has been very, very 
successful, and we have been exposed to him because we are in 
the district too. I agree with your comments very much. I 
appreciate your sharing your comments with us.
    Senator Domenici. Thank you for letting me.
    Senator Inhofe. What we are doing, Senator Smith, is to 
accommodate your schedules because I know they are very busy, 
go ahead and make your introduction and then we will proceed 
with our hearing.

STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR FROM THE STATE 
                           OF OREGON

    Senator Smith. Thank you, Chairman Inhofe, Ranking Member 
Jeffords. I am honored to be here.
    Thank you for giving me this time to introduce a fellow 
Oregonian and a friend, Sandy Baruah, who is the President's 
nominee to serve as the Assistant Secretary of Commerce for 
Economic Development.
    I first met Sandy in 1993 while I was serving in the Oregon 
State Senate and he has always represented the best interests 
of my State. Sandy graduated from the University of Oregon and 
then earned his MBA from Allama University in our State.
    After that, he joined Performance Consulting Group, a 
Portland-based corporate consulting firm with clients across 
the Nation, including Key Bank, Intel and Walt Disney World. In 
2001, he was tapped by President Bush and his Administration to 
come to Washington to serve in a senior post at the Commerce 
Department. Since that time, Sandy has earned a reputation for 
outstanding work. It is no surprise to me and to others that 
the President has nominated him for this high honor that brings 
him before your committee today.
    I should mention that this is Sandy's second tour of duty 
in Washington. During the first Bush administration, Sandy 
served in appointed positions with the Secretary of Interior 
and the Secretary of Labor. Additionally, he held various posts 
with our former colleague, Senator Bob Packwood. If Senator 
Packwood were here today, I know he would offer words of praise 
for Sandy as well.
    I know Sandy firsthand, that he is committed to public 
service both here in Washington and in our home State. It is my 
pleasure to be here on his behalf to express my support, my 
friendship for him and to request my colleagues to confirm his 
nomination. I know he will serve the President and America 
well.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Smith.
    Thank you for that fine introduction and we appreciate your 
presence here and that means a lot to us.
    We will go ahead now and ask that you take your places at 
the table. I will have a brief opening statement and I think 
Senator Jeffords will also. Is that right, Senator Jeffords?

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Good morning. We have a number of great people here, very 
significant positions that are to be filled.
    We have Sandy Baruah. I have practiced that, Sandy, and I 
think I am saying it right.
    Mr. Baruah. Yes, you are, Mr. Chairman.
    Senator Inhofe. Sandy Baruah is Nominated to be Assistant 
Secretary of Commerce for Economic Development. I might add he 
is following someone who has done an excellent job. We have had 
a chance to talk about that in my office and I have no doubt 
that you will carry on that great policy that we have had with 
your predecessor.
    Dr. George Gray has been nominated to be Assistant 
Administrator of the Environmental Protection Agency's Office 
of Research and Development.
    Lyons Gray has been nominated by the President to be the 
Chief Financial Officer of the Environmental Protection Agency.
    Ed McGaffigan has been renominated to serve a third term on 
the Nuclear Regulatory Commission.
    Dale Hall has been nominated by the President to be 
Director of the U.S. Fish and Wildlife Service. I think you 
know this, Dale. I think I recommended you to the President and 
as a result of the great experience that we have had, your fine 
leadership and your sense of fairness, you are equally popular 
with Democrats and Republicans in my State of Oklahoma.
    I am also pleased to see Ed McGaffigan renominated to the 
Nuclear Regulatory Commission. Ed has been a Commissioner since 
1996 and has played a key role in making that Commission a much 
more effective Agency.
    In 1997, I held the first oversight hearing for the NRC in 
10 years. At that time, I had become chairman of the Clean Air 
Subcommittee and we made several recommendations. Ed has been 
there during the transformation we helped promote and I look 
forward to seeing him there for another 5 years to help the NRC 
deal with the many challenges that lie ahead, and there are 
many. There is recognition now that with the energy crisis that 
is here, there is no way to survive this crisis without 
enhancing nuclear energy. I think everyone realizes that now.
    Lyons Gray is the only one with whom I haven't had a chance 
to visit but we will correct that very soon. He has been 
nominated by the President to be the next CFO for EPA, a 
position to which Mr. Gray will bring both talent and 
experience. He has corporate management experience as well as 
public finance experience, both of which will serve him well as 
CFO.
    George Gray has been executive director for the Center for 
Risk Analysis and a faculty member at Harvard University, 
School of Public Health. He has been nominated to be EPA's 
Assistant Administrator for EPA's Office of Research and 
Development. He previously served as an instructor in Risk 
Analysis at the University's Department of Health Policy and 
Management. Earlier in this career, Dr. Gray was a research 
associate at the Center for Risk Analysis.
    I don't think anyone doubts my commitment to sound science, 
something we said from the very first day I became chairman of 
this committee 2\1/2\ years ago. It is my hope to work with Dr. 
Gray to ensure the EPA is committed to decisions based on sound 
science and cost benefit analysis.
    Finally, Sandy Baruah has been nominated to be the Commerce 
Department's Assistant Secretary for Economic Development. EDA 
will be playing a vital role in the reconstruction of the Gulf 
States following Hurricane Katrina. It will take both a devoted 
and creative leader of EDA to be effective in this task.
    We appreciate all of your being here. I personally believe 
you are excellent nominees for the positions. The only question 
I have is there are two Grays here but there is also one in the 
audience. There must be a relationship. Would you share that 
with me.
    Mr. Lyons Gray. I am proud to introduce my cousin, Boyden, 
Mr. Chairman.
    Senator Inhofe. Your cousin, Boyden. It never occurred to 
me you had a cousin. Now we know.
    [Laughter.]
    Senator Inhofe. Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman.
    I would like to join you in welcoming all the nominees this 
afternoon and thank them for their commitment to public 
service.
    I have had a chance to meet with each of you. Mr. Hall 
educated me on catfish farming and Mr. McGaffigan on the 
challenges facing the Nuclear Regulatory Commission. I 
appreciate that help.
    I think having the two Grays at the EPA might be a little 
confusing but hopefully you can work that out and I am sure you 
can.
    I would also like to thank Sandy Baruah, who took the time 
to come to my hometown in Rutland, VT earlier this summer, who 
announced a $1 million grant to promote Vermont's wood products 
industry. Thank you so much and come again.
    Mr. Baruah. I appreciate the invitation.
    Senator Jeffords. This innovative partnership with the 
Vermont Council on Rural Development is generating much 
excitement in my State. It also is a good example of EDA going 
the extra step to help revitalize our forest product industry. 
Thank you very much. I hope in your capacity at EDA we can 
continue to work together on development projects for Vermont.
    We have some important nominations to consider this 
afternoon, so I will keep this short. Again, thank you for your 
willingness to serve and I look forward to hearing from each of 
you.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Thank you, Mr. Chairman. I would like to join you in welcoming all 
the nominees this afternoon, and to thank them for their commitment to 
public service.
    I have had the chance to meet with each of you. Mr. Hall educated 
me on catfish farming and Mr. McGaffigan on challenges facing the 
Nuclear Regulatory Commission.
    I think having the two Mr. Grays at the EPA might be a little 
confusing, but hopefully you can work that out.
    I would also like to thank Sandy Baruah, who took the time to come 
to my hometown of Rutland, VT, earlier this summer to announce a $1 
million grant to promote Vermont's wood products industry.
    This innovative partnership, with the Vermont Council on Rural 
Development, is generating much excitement in my State. It is also a 
good example of EDA going the extra step to help revitalize our forest 
products industry.
    I hope that in your new capacity at EDA, we can continue to work 
together on development projects for Vermont.
    We have some important nominations to consider this afternoon, so I 
will keep this short. Again, thank you for your willingness to serve, 
and I look forward to hearing more from each of you.

    Senator Inhofe. Thank you, Senator Jeffords.
    Why don't we start over here with you, Mr. Baruah, and we 
will go across. Ed, you can be last. Do try to keep within the 
5 minutes and your entire statement will be made a part of the 
record.

   STATEMENT OF SANTANU ``SANDY'' K. BARUAH, NOMINATED TO BE 
    ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT

    Mr. Baruah. Thank you very much.
    I will do better than the 5 minutes. With my statement 
submitted, let me simply introduce my wife, Lisa, sitting 
behind me.
    Senator Inhofe. Hold your hand up, Lisa. We want to know 
who he is talking about. And your son?
    Mr. Baruah. And my son, Isaac, is with us. I am 
particularly happy that he is here. I know he is particularly 
happy to be here today because it is one less day of school.
    I would like to thank Senator Smith for coming today. I 
appreciate his support.
    I am certainly honored to be President Bush's nominee to 
serve the American people as the Assistant Secretary of 
Commerce. I appreciate the committee's consideration and the 
many courtesies you and your other members have extended to me.
    I look forward to answering any questions about my 
background and perspective as it relates to the Department of 
Commerce and the Economic Development Administration.
    Thank you very much.
    Senator Inhofe. Thank you, sir.
    Mr. Gray.

    STATEMENT OF GEORGE M. GRAY, NOMINATED TO BE ASSISTANT 
      ADMINISTRATOR, OFFICE OF RESEARCH AND DEVELOPMENT, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. George Gray. Mr. Chairman, Senator Jeffords, it is an 
honor to appear before you today as President Bush's nominee to 
be the Assistant Administrator for Research and Development at 
the EPA.
    I am excited about the opportunity to enter public service 
and to apply the knowledge that I have gained in the last 20 
years to help advance public health and the environment. I am 
eager to work with Administrator Johnson and to advance the 
mission of the EPA.
    I am also proud to announce there are a few more Grays 
here, my wife, Ann; my son, Owen; and daughter, Evelyn are with 
us today.
    Senator Inhofe. Please hold your hands up. I think I know 
which you are.
    Thank you.
    Mr. George Gray. I want you to know first and foremost, I 
am a scientist. I am someone who has spent my career working to 
apply the principles of science, quantitative analysis and risk 
communication in public health. My interests have always been 
with the application of knowledge to decisions, how do we put 
information to work to do a better job.
    This interest led me to graduate study in toxicology, the 
science that helps us identify and characterize human health 
environmental hazards. Next, I was awarded a fellowship in the 
Interdisciplinary Programs in Health at the Harvard School of 
Public Health where I learned about the range of scientific 
data and knowledge needed to form an important decisions. I 
also saw how important careful consideration of the science is 
to making good decisions in public health.
    While I have studied this approach at the Harvard School of 
Public Health for the last 15 years, I believe my knowledge and 
training will enhance my ability to work with the dedicated 
scientists and professional in ORD to provide scientific and 
technological support for EPA's activities.
    My work over the last 20 years has been like that in the 
Office of Research and Development, both multidisciplinary and 
interdisciplinary. ORD conducts research analysis on a wide 
range of potential hazards, from the health effects of 
biological or chemical toxins to water quality to homeland 
security. It takes a wide range of expertise to do this, people 
working together with different kinds of knowledge and 
different kinds of expertise. I believe that more and more our 
environmental challenges will require this kind of cooperation 
and collaboration among scientific disciplines.
    Just to let you know that this is indeed the way I work, I 
want to talk briefly about a project I was involved in, the 
Harvard Tuskegee Mad Cow Study.
    We were asked by the Department of Agriculture to look at 
what might happen to the United States if mad cow disease was 
introduced to the country. This project involved the 
integration of expertise from a variety of disciplines, from 
veterinary science to neurobiology to applied mathematics. It 
required collaboration with governments, both here in the 
United States and abroad, with non-governmental organizations 
and with the industry.
    Ultimately, this study provided useful information to 
inform policy decisions, guide research, and communicate BSE 
risks to the public. If I am confirmed, this spirit of 
integration and collaboration will guide my efforts at ORD.
    I am also a teacher and I am proud of my contributions to 
education current and future environmental professionals. 
Doctoral students and students in my classes have gone on to 
work in academia, in government and in the private sector.
    Teaching is also about communicating and I want to take a 
moment to talk about that because I believe communication is 
the key to successful leadership, successful research, analysis 
and protection of human health and the environment. I will 
strive to work with all ORD stakeholders to identify important 
issues and their scientific bases; I want to help build 
understanding of ORD's mission and its actions; and to get 
useful scientific information to the hands of decision makers.
    ORD has critical responsibility in EPA's mission and if 
confirmed, I will bring enthusiasm, I will bring knowledge and 
I will bring experience in supporting that role. At the same 
time, I will bring a fresh perspective to helping advance 
Administrator Steve Johnson's goals of using the best available 
scientific information to make decisions and working 
collaboratively to find effective solutions to environmental 
problems.
    I will be happy to answer any questions you might have.
    Senator Inhofe. Thank you very much.
    Mr. Gray.

   STATEMENT OF LYONS GRAY, NOMINATED TO BE CHIEF FINANCIAL 
            OFFICER, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Lyons Gray. Thank you, Mr. Chairman and Senator 
Jeffords. It is a privilege to appear before you today as the 
nominee for Chief Financial Officer of the Environmental 
Protection Agency. I would like to thank Senator Burr for his 
kind introduction.
    I would also like to introduce my family sitting behind me, 
my wife, Connie; our daughters, Charlotte and Fraser; our son-
in-law, Cameron; my cousin, Boyden; good friends, Jean 
Spaulding and Michael Curley; and the Jim Brady family.
    It is a tremendous honor to have been nominated by the 
President for the position responsible for safeguarding public 
resources, both financial and natural ones. I would like to 
thank Administrator Johnson for his faith in recommending me 
for this key position.
    EPA's staff are well known for their commitment to the 
Agency's mission of protecting human health and the 
environment. I share their commitment and I pledge to you that 
if I have the honor of being confirmed, I will ensure that the 
Agency's environmental efforts are supported by sound financial 
management on behalf of the American people.
    I would like to tell you a bit about some of my experience 
I believe would be useful in the job for which you are 
considering me.
    At the beginning of my career, I worked in sales and 
marketing in the private sector and I received an on-the-job 
education. With responsibility for introducing a new consumer 
product, I had to think through every aspect of the project 
from start to finish, from creation through delivery. This 
experience in corporate America taught me how to follow through 
on a project considering all the relevant financial issues 
along with product development and delivery. It gave me a solid 
foundation for every step I have taken since.
    It prepared me to own my own business. My experience as a 
small business owner gave me an appreciation for the energy and 
business acumen that are needed to support a successful 
concern. If I am confirmed, I hope to bring the same energy and 
business sense to supporting EPA's successful operations.
    I would be honored if confirmed to the CFO position because 
it would allow me to return to the public sector. It was my 
great privilege to serve for 13 years in the General Assembly 
of North Carolina and during that time, I was fortunate to 
serve as a member of the House Finance Committee and as its 
chair for 4 years. In that capacity, I participated in every 
aspect of the development and oversight of the $14 million 
budget for our State. I gained valuable experience in 
reconciling a range of priorities, all of them important with 
available resources.
    I was closely involved in the State's budget process, 
especially the work of the conference committee in which 
differences were worked out between the State's House and 
Senate. This experience has given me a genuine appreciation for 
the challenges of decisionmaking when public priorities are in 
the balance.
    If you honor me with confirmation, I look forward to 
working closely with you and the other Members of Congress who 
are charged with making similar hard and difficult decisions.
    Most recently I have had the opportunity to work in the 
non-profit sector. This has allowed me to bring together what I 
have learned in both business and the State legislature for the 
benefit of my local community. As the president of the Downtown 
Winston-Salem Partnership, I led an advocacy group to re-
energize and rebuild what I think of as one of America's 
downtown communities, although I admit it is because it is my 
hometown.
    My responsibilities included the administrative leadership 
of the Downtown Foundation which raised funds to create a low 
interest loan program providing gap financing for new 
restaurants, entertainment venues and shops to get them up and 
running. Apart from the great personal satisfaction of giving 
back to my community, I also took away from this experience a 
greater understanding of how financial and environmental issues 
can be addressed together to help revitalize our American 
communities.
    Finally, it has been my great privilege to serve for the 
past 3 years as chairman of the EPA's Environmental Financial 
Advisory Board to which Senator Burr referred. It is chartered 
under the Federal Advisory Committee Act and provides advice 
and analysis to the EPA Administrator on how to pay for the 
growing cost of environmental protection and how to increase 
investment in environmental infrastructure through leveraging 
of public and private resources.
    I am proud of the Board's work on behalf of the agency, our 
principal client, and the financial expertise of the board's 
members, Michael Curley being one of them here in attendance, 
is truly excellent. The working relationship I have enjoyed 
with our DFO, Stan Meiburg, has been equally so.
    If I am confirmed as CFO, I know I will have the pleasure 
of working with dedicated people who share a commitment to 
EPA's mission.
    Mr. Chairman, public service is a gift we give back to our 
country and I am grateful for your time today and for the 
committee's consideration of my nomination. I would be pleased 
to answer any questions.
    Senator Inhofe. Before going on to you, Mr. Hall, we have 
been joined by Senator Chafee. He has an acquaintance with one 
of our nominees and I would like to recognize him to express 
himself at this time.
    Senator Chafee. Thank you, Senator Inhofe.
    I am here to support all of your nominations but in 
particular, George Gray whose brother is a prominent attorney 
in Rhode Island. Congratulations and best wishes.
    Senator Inhofe. Thank you.
    Mr. Hall.

STATEMENT OF H. DALE HALL, NOMINATED TO BE DIRECTOR, U.S. FISH 
                      AND WILDLIFE SERVICE

    Mr. Hall. Thank you, Mr. Chairman and members of the 
committee.
    It really is a great honor for me to be nominated by the 
President to be the Director of the Fish and Wildlife Service 
and for this committee to hear my qualifications to lead the 
Nation's premier fish and wildlife agency. If confirmed, I 
pledge to respectfully and responsibly reserve and promote our 
Nation's fish and wildlife conservation heritage.
    I am a 27-year veteran of the Fish and Wildlife Service and 
for the past 4 years, have been the regional director in the 
southwest United States which includes Oklahoma, Texas, New 
Mexico and Arizona, but throughout my career, I have had the 
opportunity to work all over the United States in various 
regions on different issues.
    The partnerships and relationships I have formed over those 
years have resulted in the support of my nomination by the 
Western Association of Fish and Wildlife Agencies, the 
International Association of Fish and Wildlife Agencies and the 
Southwest Tribal Fisheries Commission.
    I have a Bachelor of Science Degree in Biology and 
Chemistry from Cumberland College in Williamsburg, KY and a 
Master of Science Degree in Fisheries Science from Louisiana 
State University, Baton Rouge, LA.
    As a native of Harlan County, KY, I grew up in the arms of 
the Cumberland Plateau of the Appalachian Mountains where 
hunting and fishing was a part of life, not simply a 
recreational pursuit. This culture instilled in me an 
understanding that the Creator has given us the gifts necessary 
to sustain our lives but also the responsibility to ensure the 
care and the stewardship of those gifts.
    During my career, I have had the good fortune to work in 
the lower Mississippi River Valley on bottom land, hardwood 
wetlands, the northwest on the forest plan and the issues 
there, the California Bay Delta, the Everglades, the Rio Grande 
and the Missouri River. In all of those efforts, one thing has 
come clear to me. The single most important lesson I have 
learned is that long-standing solutions to natural resource 
problems are not found in the use of governmental power alone. 
Rather, long-term solutions must always have a foundation built 
upon collaboration with all interested constituents.
    Those interests are almost always in conflict and diverse 
but that diversity is the very source of long-term solutions. 
By listening to people's fears and concerns, truly listening 
and then responding to those, answers are found that would not 
otherwise be found.
    I worked on the ground in fisheries, as Senator Jeffords 
mentioned a moment ago. I started out as a private catfish 
farmer in the Delta of Mississippi. Later in my career, I found 
myself as the Deputy Fisheries Officer for the U.S. Fish and 
Wildlife Service overseeing hatchery policies and fundings.
    I have also worked with tribes and States across the 
country on the management and partnership and managing those 
resources.
    I have been involved in the National Wildlife Refuge system 
and formation of refuges such as the Tensau River National 
Wildlife Refuge and I have also been involved in migratory 
birds and a myriad of other issues across the country.
    Partnerships come from sportsmen, from fishermen and from 
private landowners. They are our most important constituents 
and have been the most long-standing conservationists. With 
them, we must recognize the new partners, the non-governmental 
organizations and the environmental organizations that work 
together with the sportsmen and the landowners who own 70 
percent of the fish and wildlife habitat in the United States. 
If we are going to leave a long-term heritage for our future, 
we must understand that 70 percent of that potential rests in 
private hands and we must go to them and treat them as 
partners.
    Finally, I would like to point out that the future of this 
Nation's natural resources is in the hands of our most trusted 
and most valuable asset, the youth of America. We must reach 
out, I believe, and if I am honored to be confirmed, I will 
support strong activities to bring classrooms to national 
wildlife refuges and bring our employees into the classrooms so 
that we have the kind of natural resource legacy passed on and 
understood that needs to be.
    These children are who we work for and their children are 
who we work for. If I am honored to be confirmed, I will 
constantly try to live up to the privilege of serving that 
constituency.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Hall.
    Commissioner McGaffigan.

 STATEMENT OF EDWARD McGAFFIGAN, JR., NOMINATED TO BE A MEMBER 
              OF THE NUCLEAR REGULATORY COMMISSION

    Mr. McGaffigan. Thank you, Mr. Chairman. I will try to be 
very brief.
    I appreciate the kindnesses shown to me by the members in 
my courtesy calls. I am a well-known commodity to the 
committee. I truly do appreciate the oversight that Senator 
Inhofe initiated after a 10-year break during my second year on 
the Commission. We have benefited from it, we have benefited as 
a commission from the energy legislation and I know both 
Senator Inhofe and Senator Jeffords were key players in having 
that legislation enacted back in August.
    I have been away from the Commission for 3 months, but I 
have kept up and I am anxious to get back. I am honored to be 
nominated by the President.
    I also want to express appreciation to Senator Reid of 
Nevada and Senator Bingaman, my former boss, for advancing me 
in the process of being a Democratic member of the Commission.
    We don't have Democratic and Republican differences on the 
Commission. I used to joke when there was a different 
leadership, we were lucky that Senator Daschle and Senator Dole 
did not have positions on some of these highly technical 
issues. We do the best we can. I have 30 years of Federal 
experience. I was once a scientist a long time ago but not 
particularly relevant to NRC, in elementary particle physics.
    I have teed up one issue in my prepared statement, the 
management challenge we face in the coming 5 years. There is a 
bow wave of new activity for the Commission and there is a bow 
wave of people leaving the Commission at the senior career 
level.
    I would be happy to answer any questions. I appreciate the 
support of the committee and am prepared to answer any 
questions.
    Thank you.
    Senator Inhofe. Thank you, Commissioner McGaffigan.
    We have been joined by Senator Thune. Senator Thune, we 
have done brief opening statements and have now heard from each 
of the five nominees. Is there any statement you would like to 
make prior to our questions?
    Senator Thune. No statement, Mr. Chairman.
    I am pleased to welcome all the nominees today and will 
look forward to working with them.
    Senator Inhofe. I will start off and be fairly brief 
because I have extensive conversations with four out of the 
five of you and will correct the other one shortly.
    Mr. Hall, as you probably know, I did personally go to the 
President on this because I watched you perform in the region. 
I am particularly impressed with our partnership in 
conservation programs that we have had. In fact, the field 
hearing we had in Tulsa brought in the landowners and they 
raved about what we can do working together as opposed to some 
bureaucratic mandate. That is what we want to do. I remember so 
well hearing the testimony of landowner after landowner and the 
successes they have had.
    I do hear that we are not inclusive of the stakeholders in 
considering issues on the endangered species. I would ask if 
you have any thoughts on how you can bring those successes in 
partnership to that process?
    Mr. Hall. I appreciate that Mr. Chairman and thank you for 
that question.
    I believe that we have more opportunities than we are 
exercising to bring all parties that can contribute. If you 
look at the objective, the purposes of the Endangered Species 
Act, it is to conserve ecosystems and threatened and endangered 
species that depend on those ecosystems.
    If we step and look again, as I pointed out in my opening 
comments, 70 percent of all fish and wildlife habitat in the 
United States is in private hands, we need to do more reaching 
out to those partners. What I have learned, and you alluded to 
in the comments we received, landowners want to work with us, 
they want to improve habitat, they want to have endangered and 
threatened species on their property. They simply don't want to 
be punished for it.
    We need to work more with them in giving them some 
protections against regulation because they are willing to step 
and be volunteers.
    Out of the 18 sections of the Endangered Species Act, using 
it as an example, only two sections have prohibitions or 
penalties. All other sections direct us to work with other 
people to try and find solutions before regulation is 
necessary. I believe working with private landowners, the State 
agencies, the tribes and other partners is the real approach to 
try and get there.
    Senator Inhofe. I appreciate that and we have seen that in 
action.
    Mr. George Gray, and we will have to do it that way since 
we have two Grays, on this committee, quite often we will be 
talking in terms of absolute numbers, x number of people are 
going to die and when you address this risk discussion, it 
would seem to me we would be much better at talking about 
ranges of risks. I would just ask you the question, do you 
believe the EPA should do a better job of clearly stating the 
range of uncertainty and what else can be done to better 
communicate that risk to the public?
    Mr. George Gray. Thank you, Mr. Chairman. That is an 
important and insightful question.
    My answer in short is yes. One of the things I think is 
important for all of us who use science and want to make sure 
it is characterized adequately is to be suitably humble. We 
have to be humble about what we know and don't know.
    Senator Inhofe. I love to hear that.
    Mr. George Gray. I think part of being humble is not acting 
like there is one single right answer that comes out of our 
processes, recognizing there are ranges. Those ranges are 
important for two reasons. One is the range helps us understand 
how well we know something and how big a problem we have, but 
also tells us where more information can help us learn more and 
make better decisions.
    For both of those reasons, I think you are exactly right. 
We need to do a better job of actually quantifying the 
uncertainty in all of our estimates of risk.
    Senator Inhofe. Thank you.
    I have just been notified that we will have three 
consecutive votes that begin in 5 minutes but they will hold 
the first one open. It would be my desire, Senator Jeffords, if 
you agree, that we kind of hurry along our questions and be 
able to conclude this prior to dismissing for the vote.
    Senator Jeffords. I will do my best.
    Senator Inhofe. Commissioner McGaffigan, you are kind of a 
proven number but you also come with your experience 
recognizing, as you were nice enough to say, when we first 
started doing oversight in 1996, right now you will get into an 
aggressive area. We are going to have to have as we resolve the 
problems there with the energy crisis we have, nuclear energy 
is going to be an important part of that.
    I would, first, ask you what we can do to assist you in 
this because this is going to be something that is going to 
take a lot of personnel. I would like to ask what assistance we 
can be to you in this effort?
    Mr. McGaffigan. Mr. Chairman, you and Senator Jeffords, and 
particularly Senator Voinovich, in the Energy bill gave us just 
about every management tool that we could think of. Now I think 
the job is for us to make use of those tools.
    I think the continued oversight either by you or by Senator 
Voinovich's subcommittee of our activities would be very 
useful. Are we using all the tools you have given us? We are 
going to be hiring 350 people next year. That means a year from 
now 10 percent of our work force, more than 10 percent, is 
going to be new to the Commission. We have to make sure they 
are trained well because we really do face a lot of additional 
activity as various applicants come forth for nuclear combined 
operating licenses.
    Senator Inhofe. In deference to time, Mr. Lyons Gray, you 
are familiar with what we have done, the effort I have been 
involved in with discretionary grants. I would just ask if you 
would be fully cooperative in pursuing this so that we are 
getting grants to the places that should receive grants and in 
the best interest of our functions?
    Mr. Lyons Gray. Absolutely, Senator, and looking forward to 
working with you on that.
    Senator Inhofe. That would be great.
    Mr. Baruah, have you given any thought to what your role is 
going to be post-Katrina and now post-Rita?
    Mr. Baruah. Yes, Mr. Chairman. EDA can offer a range of 
options so it is really up to the Congress to decide what they 
would like us to do. We have played a major role in major 
disasters and we have many tools available ranging from 
infrastructure to strategy planning to various other tools. It 
is actually the Congress who tells us what we should do.
    Senator Inhofe. That is good. I appreciate that.
    Staff has reminded me I neglected to ask you the required 
two questions and I would ask each of you to respond to each of 
these two.
    Are you willing to appear at the request of any duly 
constituted committee of Congress as a witness?
    [All nominees respond in the affirmative.]
    Senator Inhofe. Do you know of any matters which you may or 
may not have thus far disclosed that might place you in any 
conflict of interest if you are confirmed to this position?
    [All nominees respond in the negative.]
    Senator Inhofe. Senator Jeffords?
    Senator Jeffords. Mr. Baruah, the United States lags far 
behind other nations in utilization of broadband technology. 
The private sector is not stepping up to the plate in many 
rural areas. What role do you think the public sector should 
play in wiring rural areas and in particular, what can EDA do 
to speed up the process?
    Mr. Baruah. Senator Jeffords, I agree with your emphasis on 
how important broadband deployment is to America's communities, 
especially America's rural communities.
    In terms of the Federal lead, that is actually given to the 
U.S. Department of Agriculture which has a broadband deployment 
program. In addition to that, EDA can assist in broadband 
deployment and we have. We have done several broadband 
deployments. I think just last year, we did one in rural 
Virginia and another in New Mexico as well.
    So we have played a role and we are happy to work with 
rural areas to see if we have a unique resource that the USDA 
does not have in rural deployment of broadband.
    Senator Jeffords. Thank you.
    Mr. George Gray, do you believe based on the best available 
science, that climate change is a result of human activity?
    Mr. George Gray. Well, Senator, we know there is a lot of 
research going on looking at different factors involved in 
climate change. We know it is something that has always been 
changing, we know what some of the factors are and we don't 
know what all the others are. I think it is a situation in 
which we know certain contributions could come from human 
activity. We don't necessarily know the magnitude of those 
compared to the other factors but ongoing research is going to 
help us to understand and characterize that better.
    Senator Jeffords. Mr. Lyons Gray, as you have discussed 
with my staff, I feel it is very important that this committee 
be given timely data and information on EPA's budget. Will you 
do all you can to see this is done?
    Mr. Lyons Gray. Yes, sir. My own philosophy is one of being 
open and candid and forthcoming and to the degree that we can, 
we will do our best to give you the timely information that 
helps you make decisions--tough decisions.
    Senator Jeffords. Thank you. I look forward to that.
    Mr. Hall, as a fisheries biologist and wetlands ecologist 
with extensive experience in various regions of the country 
including the Gulf Coast, I am interested in your insight on 
how we should be looking at the wetlands restoration in the 
Gulf Coast in the aftermath of Hurricane Katrina?
    Mr. Hall. I know there are a lot of people looking at this 
issue but one of the things I find encouraging is the 
recognition that has surfaced of the value of wetlands in 
buffering storms like this. There have been a lot of 
discussions going on lately that has been in the literature 
over the years.
    Having coastal marshes off Louisiana is not simply 
something that is really good for shellfish production, shrimp 
production and fish production and water fowl but it actually 
has served over time to be good storm buffers.
    I believe as we move forward and if I am privileged to be 
confirmed, I would try and advocate that the creation of 
marshlands, barrier islands and other such structures that have 
historically been there to help the people in all aspects, both 
economic and natural resources, be considered part of the 
reconstruction for storm abatement, not just for mitigation.
    Senator Jeffords. Thank you.
    Mr. McGaffigan, it is good to see you again.
    Mr. McGaffigan. It is good to be here, sir.
    Senator Jeffords. When we met we discussed the Commission's 
ability to process a Yucca Mountain permit application and the 
Department of Energy's ability to produce one. For the NRC, 
processing any Yucca Mountain permit would require adding new 
expertise to the Commission that it has not traditionally had. 
Will you share with the committee on that issue as to what we 
should do to perhaps rectify problems?
    Mr. McGaffigan. I think the Commission has done a good job 
of anticipating the Yucca Mountain application. We have a group 
of people in San Antonio, TX, the Center for Nuclear Waste 
Regulatory Analysis, who are the experts along with our staff. 
They have been put together to aid the hearing.
    We have also created a licensing support network that is a 
discovery tool. This will be an adjudicatory process, a full 
blown trial like in a district court, and there are 40 million 
pages of documents to be entered by various parties to the 
proceeding. I believe it will be the most complex 
administrative proceeding in the history of mankind if DOE gets 
the application to NRC sometime next year.
    We have been preparing for this for a long time. We have a 
statutory mandate to try to complete the first hearing in 3 to 
4 years. I do want to remind the committee that there is a 
second hearing on the license to receive and emplace waste. 
That second hearing will be another long haul.
    What I have said privately is it was Admiral Watkins when 
he was Secretary of Energy who suggested a 10-year time scale 
from the first application to opening Yucca Mountain and that 
is probably about right which means if we get an application 
next year, it could well be 2016 before the second trial is 
over.
    Senator Jeffords. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Jeffords.
    They are holding a vote for us now, so I think we have had 
an opportunity to hear from you. I appreciate your time, your 
coming, your willingness to serve and we will be looking 
forward to taking the next step in serving with you.
    The hearing is adjourned.
    [Whereupon, at 3:16 p.m., the subcommittee was adjourned.]
    [Additional statements submitted for the record follow.]

Statement of Santanu K. Baruah, Nominated to be the Assistant Secretary 
                  of Commerce for Economic Development

    I am pleased to appear before you as the President's nominee to 
become Assistant Secretary of Commerce for Economic Development. I am 
deeply honored to be President Bush's nominee for this post and 
grateful for the opportunity to serve. I also very much appreciate 
Commerce Secretary Gutierrez's leadership and his confidence and 
support.
    Before I begin, please allow me to introduce the most important 
people in my life. My wife, Lisa, is with me today along with our son, 
Isaac, who is happy to be here today because it's one less day of 
school.
    Today, I would like to give you a better sense of what I hope to 
accomplish as the Assistant Secretary of Commerce for Economic 
Development if given that opportunity. Let me begin by stating my 
strong commitment to the mission of the Economic Development 
Administration. Our mission at EDA is to ``lead the Federal economic 
development agenda by promoting innovation and competitiveness, 
preparing American regions for growth and success in the worldwide 
economy.'' We do this by helping to create the right conditions for 
economic growth and expanded opportunity. We promote innovation. We 
foster entrepreneurship. We enhance competitiveness.
    With the support of this committee and the Senate, and the 
professional staff of EDA, I am confident that I can build upon the 
strong record of accomplishment established by the previous Assistant 
Secretary, David A. Sampson, and support Secretary Gutierrez's 
commitment to excellence.
    After 4 years at the Commerce Department as an EDA senior staff 
member--Deputy Assistant Secretary for Program Operations and Chief of 
Staff--I know that the role of the Assistant Secretary can be broken 
down into three primary categories: policy, stewardship and leadership.
    From a policy perspective, I intend to maintain EDA's focus on the 
creation and retention of higher-skill, higher-wage jobs in America's 
economically distressed communities. Under my leadership, if given the 
opportunity, EDA will continue to accomplish this by promoting leading-
edge, market-based strategies, encouraging regional and comprehensive 
development approaches, and focusing on the critical role the private 
sector plays in providing opportunity and creating healthy vibrant 
communities.
    From a stewardship perspective, it is never far from my mind that 
Administration appointees are only temporary custodians of the legacy 
we are asked to manage. As all good stewards, we should leave what was 
entrusted to us in better condition than we found it. I know that is 
the case of my predecessor. EDA is a more efficient and effective 
organization than it was 4 years ago. I am proud to have played a role 
in this accomplishment.
    I am proud that EDA was among the first Federal programs to 
implement a robust Balanced Scorecard, and in fact was inducted into 
the Balanced Scorecard Hall of Fame in 2004. The successful development 
of this strategy and performance measurement tool has helped EDA 
achieve good ratings from the Office of Management and Budget's Program 
Assessment Rating Tool (PART).
    Also, as you know, the Congress reauthorized EDA in 2004. During 
the past several years, EDA's job creation efforts have been greatly 
strengthened by a pattern of increased private sector leverage of 
Federal grant dollars. In fact, EDA's private sector leverage--the 
ratio of private sector dollars invested for every EDA investment 
dollar--has increased from 9-to-1 to 40-to-1 in the past 4 years. We 
understand that an economic development project does not begin to 
approach its potential until the private sector is ready, willing and 
able to invest in the enterprise--this is how jobs are created.
    A large part of stewardship is management. In addition to my 4 
years in a senior capacity at EDA, I have a background in management. 
Prior to joining President Bush's administration, I was a senior 
management consultant with Performance Consulting Group, a successful 
corporate management consulting firm with several Fortune 500 clients, 
such as Intel, KeyBank, U.S. Bank, Disney World and others. My prior 
government service includes staff positions with U.S. Senator Bob 
Packwood and service in the Presidential Administration of George H.W. 
Bush, with appointed positions in the office of the Secretary of Labor 
and the Secretary of the Interior.
    From a leadership perspective, the Assistant Secretary has many 
responsibilities. From serving as an effective advocate of the 
President's agenda, to establishing the highest of ethical standards 
for the agency to emulate, to working cooperatively with the Congress, 
to reaching out and listening to the people and organizations touched 
by EDA's programs, and dealing openly, respectfully and honestly with 
EDA's career professional staff. These are all challenges that I do not 
take lightly, yet am confident that I am equal to. I believe my 
combination of experience in EDA, coupled with my public and private 
sector experience make me well qualified to lead EDA.
    Leadership will be important as EDA addresses the important 
challenges ahead, such as assisting BRAC-impacted communities 
transition their economies, helping the Gulf Region rebuild their 
economy after the devastating impact of Hurricane Katrina, supporting 
President Bush's Strengthening America's Communities Initiative, and 
continuing to deliver excellent Federal services in an era of modest 
financial resources.
    Once again, I am honored by President Bush's confidence in me and I 
look forward to earning the confidence of this committee and the U.S. 
Senate.
    I have been richly blessed with family, friends and opportunity. I 
am especially thankful for Lisa, for her love and for all the 
sacrifices she has made to make my service in the Administration 
possible. It has been an honor for both of us. Thank you again for this 
opportunity to appear before you today, and for your consideration of 
my nomination. I would be pleased to respond to any questions you may 
have.
                                 ______
                                 
       Responses of Sandy K. Baruah to Additional Questions from
                            Senator Jeffords

    Question 1. The Economic Development Administration (EDA) may be 
ideally suited to take a proactive role in redeveloping areas such as 
the Gulf impacted by natural disasters. What role has EDA played in 
Hurricane Katrina relief efforts and looking out 6 months, what do you 
think EDA can and should do to get these devastated areas back on their 
feet?
    Response. EDA has already made available over $8.8 million for 
strategy and planning from funds deobligated in Fiscal Year 2005 to 
assist in the redevelopment of Louisiana, Mississippi and Alabama. 
Since Hurricane Katrina struck the affected area, regional members of 
EDA's team have been on the ground assessing needs and developing plans 
with local officials and business people to begin the long process of 
rebuilding.
    If Congress appropriates additional funds to EDA as part of the 
appropriations bill or a supplemental, those funds can also be used for 
capacity building, technical assistance and infrastructure development 
for the purpose of revitalizing the Gulf Coast Region.
    EDA's disaster recovery program provides assistance to disaster 
impacted communities to achieve long-term economic recovery by 
augmenting the institutional capacity of local governments with 
strategic planning and technical assistance grants. EDA can also 
provide funds for new construction and/or pre-disaster improvements to 
commercial and industrial facilities and publicly owned infrastructure 
to support job retention and creation, private investment and long-term 
economic recovery. Finally, EDA can support locally directed mitigation 
efforts flowing from a strategy recovery planning process to safeguard 
jobs and investment from future disasters.
    EDA has a local planning network of sub-regional economic 
development planning districts that work with key local officials and a 
30 year history of long-term program partnerships with state and local 
governments. EDA has played a significant role in helping to fill 
program ``gaps'' by packaging assistance with other Federal partners in 
previous disasters.

    Question 2. I am trying to figure out the impact the enactment of 
the proposed investment rate guidelines contained in the just published 
interim final rule will have on Vermont and the Nation. I understand 
that the Federal matching rate criteria for all EDA investments are 
changed in the just published interim final rule. Can you please 
provide maps and data that detail the current Federal-local match rates 
for EDA district planning grants under the current rules versus the 
interim final rule. In addition, can you provide a map showing by 
county or census tract the current Federal-local match rate for EDA 
public works assistance and one showing the Federal-local match rates 
for public works assistance under the interim final rule.
    Response. The Investment Rate guidelines reflect the 
Administration's commitment to allocate greater resources to areas of 
greater economic distress. Indeed, EDA's authorizing statute, the 
Public Works and Economic Development Act of 1965, as amended 
(``PWEDA''), explicitly mandates this priority allocation:

        In promulgating rules, regulations, and procedures for 
        assistance under this title, the Secretary shall ensure that . 
        . . allocations of assistance under this title are prioritized 
        to ensure that the level of economic distress of an area, 
        rather than a preference for a geographic area or a specific 
        type of economic distress, is the primary factor in allocating 
        the assistance. PWEDA, Section 206.

    The new Investment Rate provisions also reflect the reality of 
EDA's practice in determining grant rates over the past 4 years. For 
example, in fiscal year 2004 and fiscal year 2005, 36 percent of EDA 
projects received grant rates of less than 50 percent. As EDA's annual 
program appropriations have steadily declined since fiscal year 2001, 
EDA has focused on maximizing the leverage its assistance produces. In 
this respect, EDA's programs have been particularly effective by 
consistently producing higher and more beneficial economic outcomes 
across the Nation in spite of the application of lower grant rates.
    Economic Development Districts each have a unique composition, 
making the determination of the appropriate distress level difficult. 
Determining a District's distress level requires an analysis and 
blending of the distress levels of the member counties and other 
political units. EDA is currently evaluating different methodologies.

    Question 3. Given that the central mission of EDA is to lead the 
Federal Government's economic development agenda, please detail what 
you see as key jobs and experiences in your background that will enable 
you to serve effectively as head of an organization that has a diverse 
and varied role in delivering economic, community and infrastructure 
development resources?
    Response. I have spent the last 4 years at the Commerce Department 
as an EDA senior staff member, first serving as the Deputy Assistant 
Secretary for Program Operations and now serving as Chief of Staff. It 
is in these two roles that I have gained first hand knowledge and 
experience delivering key development resources. Additionally, having 
served in the two roles at EDA, I have engaged with every substantive 
issue in which the bureau is involved, whether operational, policy-
focused or management-related. During my tenure at EDA, I have traveled 
extensively across America--30 states--to communities served by EDA. I 
have visited all of EDA's regional offices several times and have 
examined their operations. This has enabled me to witness first hand 
EDA's regional staff in action and to fully understand how EDA projects 
are developed and executed.
    In addition to my 4 years in a senior capacity at EDA, I have a 
background in management. Prior to joining President Bush's 
Administration, I was a senior management consultant with Performance 
Consulting Group, a successful corporate management consulting firm 
with several Fortune 500 clients, such as Intel, KeyBank, Citizens 
Bank, Disney World and others. My prior government service includes 
staff positions with U.S. Senator Bob Packwood and service in the 
Presidential Administration of George H. W. Bush, with appointed 
positions in the office of the Secretary of Labor and the Secretary of 
the Interior.

    Question 4. It is my understanding that 2 years ago, EDA 
headquarters underwent a fifty percent staff reduction to, in part, 
place more staff and resources at the regional and field levels. Now, I 
understand that EDA is undergoing or contemplating a reduction in field 
personnel. Please provide me with staffing levels for the regions and 
headquarters since fiscal year 2003. In addition, please provide me 
with details of any additional planned staff cuts in either the regions 
or headquarters and a justification for such cuts.
    Response. EDA implemented a restructuring of its headquarters 
organization in March of 2004. Through this restructuring, EDA 
streamlined its headquarters organization with fewer supervisors and 
reduced staff levels. Employees with the requisite skills to support 
regional operations now staff headquarters more effectively and 
efficiently. The new headquarters structure enables EDA to deploy its 
human resources more effectively and efficiently to support an 
organization that is citizen-centered, results-oriented, and market-
based. The staffing in headquarters was reduced to 71 authorized FTE, a 
reduction of 22 FTE (23 percent) from the on-board level in September 
1999.
    In January, 2003, EDA had 223 staff on board: 74 in headquarters 
and 149 in the regions. EDA will commence operations in fiscal year 
2006 with 48 staff in headquarters and 122 staff in the regions. Fiscal 
year 2006 appropriations will determine the staffing level that EDA 
will be able to support in the future. In line with the President's 
Management Agenda, EDA is dedicated to keeping its resources close to 
the customer. If the House Mark is passed, EDA anticipates additional 
staff reductions. If the Senate Mark is passed, EDA will have 
sufficient funds to maintain the overall staff level achieved by the 
recent buyouts.
    However, it is important to note that at the close of fiscal year 
1999, EDA had 267 people--94 in HQ and 173 in the regions. EDA 
headquarters has shrunk by 49 percent, while our regions have shrunk by 
29 percent. EDA cannot continue to operate using the structure and 
processes developed in the 1970's and 80's that require resources no 
longer available to us.
    In fiscal year 2006, EDA's challenge is to look internally to 
determine how EDA can evolve to sustain its high level of customer 
service but continue to operate within available resources. EDA must 
focus its attention on utilizing automation and information technology, 
and target its resources on those steps of the process where human 
involvement will provide the most value. EDA will need to place its 
resources strategically to ensure that critical customer support is 
maintained while critical elements of our program are adequately 
managed and monitored. I look forward to working with you as we engage 
in this process.

    Question 5. The interim final rule promulgated by the agency 
transforms the board makeup of district organizations from majority 
representation of public officials to majority representation of 
private sector officials. I understand that this requirement does not 
apply if state or local law requires that Economic Development District 
boards maintain majority public sector representation. Please identify 
for me those states that require Economic Development District boards 
to have majority public official representation.
    Response. EDA has heard and understood clearly from Congress and 
public comments on the Interim Final Rule (IFR) that revision of this 
provision is of fundamental importance to EDA stakeholders. EDA has 
therefore committed to working with its stakeholders to produce a Final 
Rule that addresses these concerns while maintaining a commitment to 
the public-private partnership that constitutes the necessary 
foundation of successful economic development. To manifest this 
commitment, EDA published on September 30th in the Federal Register a 
notice that delays for 45 days the effective date of this provision in 
the IFR, as well as the provisions pertaining to Investment Rate 
determination for its Planning Investments. EDA is also extending the 
public comment period for the entire IFR during this period. While EDA 
cannot commit to specific changes separate and apart from the 
regulatory process, the bureau pledges to work diligently with its 
stakeholders to understand and address their concerns.
    In the short amount of time allotted, EDA researched state and 
local laws and consulted with EDA stakeholders to formulate the answer 
to this question. To the best of our knowledge, the following states 
require or enable majority public official representation for Economic 
Development District boards: Arkansas, Florida, Illinois, Kentucky, 
Louisiana (for regional planning commissions formed in urbanized areas 
with a population greater than 50,000 persons), Maryland, Minnesota, 
Nevada, New Mexico, South Carolina, South Dakota (where an 
administrative or separate legal entity is formed pursuant to an 
intergovernmental agreement), Tennessee, Texas, Virginia, West 
Virginia.
    Please note that the same response is given to Senator Clinton No. 
2 and Senator Voinovich No. 1.

    Question 6. Under the proposed interim final rule, ``EDA will fund 
a Planning Organization's or District's administrative expenses, so 
long as it can demonstrate that those expenses are attributable to 
developing and implementing their strategies. Does the agency feel 
expenses such as rent or insurance that are incurred during the routine 
operation of a planning organization or district are legitimate and 
necessary to the development of a Comprehensive Economic Development 
Strategy (CEDS) and would thereby be an allowable expense under the 
planning grant program?
    Response. As the quoted provision (IFR Section 303.5) states 
explicitly, EDA recognizes that incurrence and reimbursement of 
administrative expenses such as insurance and rent will necessarily 
occur as part of its Planning Investments. The legitimacy of any 
Planning Investment expenses will be determined: (i) in accordance with 
applicable Federal cost principles; (ii) pursuant to an agreed scope of 
work for direct costs; and (iii) for indirect costs, as those costs are 
anticipated and integrated as part of a comprehensive CEDS budget.
    Please note that the same response is given to Senator Clinton #4.
                                 ______
                                 
   Responses of Sandy K. Baruah to Additional Questions from Senator 
                                 Chafee

    Question 1. The President has sought to expand the Economic 
Development Administration (EDA) by consolidating other economic 
programs like Community Development Block Grants (CDBG) and Economic 
Development Initiative into EDA. This has run into a lot of opposition 
on Capitol Hill. I am concerned particularly about CDBG, which is based 
at HUD and has a specific focus on community. Where does the 
President's plan for expanding EDA currently stand?
    Response. Let me begin by reiterating what I have shared with your 
colleagues over the last few weeks: I have been nominated to be the 
Assistant Secretary for Economic Development. Subsequently, if 
confirmed, the operations and policies of the Economic Development 
Administration (EDA) will be my focus. If, by an act of Congress, the 
Strengthening America's Communities Initiative (SACI) came to pass, the 
President would make a separate nomination for that post.
    President Bush's SACI proposal is not an expansion of EDA or any 
other existing Federal program. His fiscal year 2006 budget recommends 
the consolidation of funding for 18 community and economic development 
grant programs (including EDA and HUD's CDBG) into an entirely new 
program to be housed at the Department of Commerce. If the initiative 
is enacted, EDA would close out operations as the new entity is 
established.
    SACI is a bold proposal that, for the first time in a generation, 
reforms the way the Federal Government addresses the critical community 
and economic development needs of America's rural and urban areas. As 
presented in the President's fiscal year 2006 budget, SACI would carry 
over the vast majority of grant authorities that exist in the current 
18 community and economic development programs. The Administration 
understands the popularity of the efforts supported by HUD's CDBG 
program; those efforts will likely still be eligible under SACI as 
proposed.

    Question 2. As the new Director, how would you go about leading an 
agency in transition? Further, I have heard that there are a number of 
senior EDA civil servants that have left the agency in the recent past. 
What are you doing to make sure the level of expertise and competence 
at the agency remains high?
    Response. As the Assistant Secretary for Economic Development 
responsible for the administration of the Economic Development 
Administration (EDA), I will concentrate on EDA's mission to lead the 
Federal agenda for economic development by promoting innovation and 
competitiveness. During a time of tight Federal budgets, EDA's 
challenge will be to maintain program performance and customer service 
levels with reduced fiscal and human resources. EDA's leaders and 
managers will need to be flexible and innovative in order to accomplish 
these goals and to keep EDA personnel energized and motivated.
    EDA faces special challenges this year, including carrying out the 
requirements of Executive Order 12788 to assist communities impacted by 
BRAC. It is also likely that EDA will be called upon to expand our 
economic recovery efforts in the Gulf Coast.
    Although a number of civil servants left headquarters during the 
headquarters restructuring, EDA ensured that those employees who 
remained maintained EDA's high level of service. EDA is ensuring that 
existing staff are cross-trained and positioned to absorb the functions 
performed by retiring staff members. In addition, EDA will continue to 
re-examine our processes and organization structures in order to best 
utilize human capital and to maintain our well deserved reputation for 
high levels of customer service.
                                 ______
                                 
   Responses of Sandy K. Baruah to Additional Questions from Senator 
                                 Baucus

    Question 1. What resources do you believe EDA will need to help 
communities affected by the BRAC process?
    Response. In 1992, EDA was provided $50 million to respond to the 
BRAC rounds of 1988 and 1991. These funds were primarily used for reuse 
strategy development and planning. In 1993, EDA was provided $80 
million, and in 1994, EDA was appropriated another $80 million, for 
strategy development, planning, technical assistance and infrastructure 
implementation projects. In fiscal year 2006, EDA will assist BRAC 
communities to the extent its resources allow, and again, will focus on 
strategy development and planning. The President's Budget for fiscal 
year 2007 is still in development and funding for BRAC impacted 
communities is part of these budget discussions.

    Question 2. What strategies do you have for revitalizing rural 
communities? Do you believe the current private sector leveraging 
ratios are appropriate to execute such strategies?
    Response. Yes, we believe that the current private sector 
leveraging ratios for our applicants are appropriate. Currently, EDA's 
target leveraging ratio for investments is 22 private sector dollars 
for each EDA dollar invested (22 to 1). In recent history, the actual 
ratio for EDA's investment portfolio has been approximately 40 to 1--
nearly twice EDA's target. Furthermore, historically and currently, 
between 50 percent to 60 percent of all EDA investments are made in 
rural areas. The target and actual ratios of private sector leverage, 
combined with the percentage of investments made in rural communities, 
demonstrate that the private sector leveraging ratios required by EDA 
do not preclude rural communities from becoming investment partners. 
Additionally, all six EDA regions have met 95 percent or more of their 
targets on the EDA Balanced Scorecard for this measure, indicating that 
the goal is achievable throughout the country.
    EDA is keenly focused on the economic development needs and 
challenges facing rural communities and maintains several partnerships 
with domestic and international thought leaders on rural development. 
We appreciate the unique challenges facing rural communities. 
Difficulty raising investment capital, lower tax bases and unique 
infrastructure needs all play a major role in informing our approach to 
rural applicants. It is our intent to continue our emphasis on rural 
economic development and improve upon it by encouraging rural 
applicants to take advantage of their competitive advantages and to 
work in regional partnerships to access greater financial, human and 
political resources.
    EDA works closely with Dr. Mark Drabenstott, Director of the Center 
for the Study of Rural America and Vice President of the Federal 
Reserve Bank--Kansas City. EDA also works closely with Dr. Michael E. 
Porter, the Bishop William Lawrence University Professor at the Harvard 
Business School. Dr. Porter founded the Institute for Strategy and 
Competitiveness and his work on such topics as clusters of innovation 
and regional competitiveness have become the foundation for much of 
EDA's strategy for assisting rural communities. Furthermore, in order 
to assess and analyze the special needs of rural communities, and 
improve on existing approaches to rural economic development, EDA has 
recently released a Federal Funding Opportunity notice requesting 
research proposals to address Rural Clusters of Innovation. We 
anticipate the award of a grant or grants in the near future.

    Question 3. How much money has EDA spent promoting the 
Strengthening America's Communities Initiative?
    Response. EDA has incurred expenditures associated with the 
Strengthening America's Communities Advisory Committee, which was 
established pursuant to a February 9, 2005 request letter from the 
White House Domestic Policy Council to the Secretary of Commerce under 
the authority of the Federal Advisory Committee Act, as amended 
(``FACA'') (5 U.S.C. App. 2).
    The objectives and duties of the Committee are to provide advice 
and recommendations to the Secretary, and to develop a comprehensive 
written report to help inform the Administration and shape the policy 
parameters of the President's Strengthening America's Communities 
Initiative. The Committee's report provides new and innovative thinking 
on the future of economic and community development and asks how the 
Federal Government can best adapt its programs and approach to the 
challenges and opportunities faced by American communities and regions 
in the 21st Century worldwide economy.
    Costs related to the Advisory Committee during fiscal year 2005 
totaled $135,002. Other costs associated with SACI include staff travel 
and per diem, a satellite broadcast funded through an information 
dissemination grant, publication and miscellaneous expenses totaling 
approximately $100,000.

    Question 4. If the administration's budget again proposes the 
Strengthening America's Communities Initiative, will EDA continue to 
solicit funding proposals until Congress acts on the SACI proposal?
    Response. EDA cannot speak for the President in advance of his 
budget request to Congress that will occur February 2006. If funds are 
appropriated for EDA's programs, we will of course fulfill our 
responsibilities under law. The Department of Commerce and EDA will 
continue to support and advocate initiatives proposed by the President.
                                 ______
                                 
       Responses of Sandy K. Baruah to Additional Questions from
                            Senator Clinton

    Question 1. Why did the agency reference the Strengthening 
America's Communities Initiative (SACI) in the opening of the interim 
final rules? Is there any connection between these rules and SACI? What 
will be your role in promoting SACI?
    Response. The mention of SACI appears in the introduction to EDA's 
Interim Final Rule (IFR), not in the IFR itself. This appearance was an 
explicit recognition of this Presidential initiative. If the SACI 
proposal were enacted by Congress, it would consolidate funding for 18 
existing programs, including EDA and therefore eventually eliminate EDA 
program funding. In spite of this possibility, the introduction to the 
IFR cites several reasons for the promulgation of amended regulations. 
The fourth specific reason states that, ``it would be necessary for new 
Investments pursuant to appropriations for Fiscal Year 2006 that 
Congress may enact.''
    To be clear, I have been nominated by the President to serve as the 
Assistant Secretary of Commerce for Economic Development. If confirmed, 
I recognize that my role will be to manage EDA and to be a steward of 
its programs and resources--to position EDA for the future. As an 
appointee, my role is also to contribute positively to the policy 
formulation process, to help shape new initiatives as requested by the 
President and Secretary of Commerce and to advance the President's 
policy agenda.

    Question 2. The interim final rule promulgated by the agency 
transforms the board makeup of district organizations from majority 
representation of public officials to majority representation of 
private sector officials. I understand that this requirement does not 
apply if state or local law requires that Economic Development District 
boards maintain majority public sector representation. Please identify 
those states that require Economic Development District boards to have 
majority public official representation.
    Response. EDA has heard and understood clearly from Congress and 
public comments on the Interim Final Rule (IFR) that revision of this 
provision is of fundamental importance to EDA stakeholders. EDA has 
therefore committed to working with its stakeholders to produce a Final 
Rule that addresses these concerns while maintaining a commitment to 
the public-private partnership that constitutes the necessary 
foundation of successful economic development. To manifest this 
commitment, EDA published on September 30th in the Federal Register a 
notice that delays for 45 days the effective date of this provision in 
the IFR, as well as the provisions pertaining to Investment Rate 
determination for its Planning Investments. EDA is also extending the 
public comment period for the entire IFR during this period. While EDA 
cannot commit to specific changes separate and apart from the 
regulatory process, the bureau pledges to work diligently with its 
stakeholders to understand and address their concerns.
    In the short amount of time allotted, EDA researched state and 
local laws and consulted with EDA stakeholders to formulate the answer 
to this question. To the best of our knowledge, the following states 
require or enable majority public official representation for Economic 
Development District boards: Arkansas, Florida, Illinois, Kentucky, 
Louisiana (for regional planning commissions formed in urbanized areas 
with a population greater than 50,000 persons), Maryland, Minnesota, 
Nevada, New Mexico, South Carolina, South Dakota (where an 
administrative or separate legal entity is formed pursuant to an 
intergovernmental agreement) Tennessee, Texas, Virginia, and West 
Virginia. Please note that the same response is given to Senator 
Jeffords #5 and Voinovich #1.

    Question 3. There has been significant discussion that the interim 
final rule will eliminate the existing functions and operations of 
economic development district organizations, which would appear to 
conflict with the intent of reauthorization legislation enacted last 
year. '302.4 (Title 13) of the current Federal regulations for EDA is 
almost entirely stricken in the interim final rule. The section 
specifically provided economic development districts with the ability 
to do such things as coordinate and implement economic development 
activities in the district, assist local governments in applying for 
grant assistance and carry out economic development related research, 
planning, implementation and advisory functions. It seems that the only 
remaining allowable operation of districts under the interim rule is 
the ability to contract out for services. If it is the intention of the 
agency to preserve the existing operation and activities of districts, 
can you explain why these functions and responsibilities were 
eliminated in the rule?
    Response. None of the District Organization activities listed in 
the question are prohibited in the IFR. EDA intends through the IFR 
that District and other Planning Organizations will continue to conduct 
these and other activities as contemplated in a comprehensive, well-
considered and feasible Comprehensive Economic Development Strategy 
(CEDS), written by the Planning Organization. The CEDS must contain, 
among other things, a quantified plan of action for implementing the 
CEDS as well as performance measures by which to evaluate the 
organization's CEDS implementation.
    EDA did not include in its IFR the list of functions and 
responsibilities in its former regulations in order to encourage each 
Planning Organization to determine independently, creatively and 
critically the activities it will undertake through CEDS 
implementation. Economic Development Districts throughout our nation 
face radically different economic challenges which demand different 
responses. For example, the challenge of gradual but substantial out-
migration from rural North Dakota demands a different response from the 
challenge of substantial annual population inflows of immigrant labor 
into California's Central Valley. Rather than providing a federally 
mandated ``one size fits all'' checklist of activities that might be 
interpreted as the standard for satisfactory performance of a District 
Organization, EDA believes that critical and continuous local 
evaluation and re-evaluation of a regionally tailored CEDS will produce 
more efficient--and more effective--allocation of each District 
Organization's resources, leading to beneficial economic outcomes for 
each District.
    Please note that the same response is given to Senator Voinovich 
#3.

    Question 4. I understand that EDA will fund a Planning 
Organization's or District's administrative expenses, so long as it can 
demonstrate that those expenses are attributable to developing and 
implementing their strategies'' (CEDS). Does the agency feel expenses 
such as rent or insurance that are incurred during the routine 
operation of a planning organization or district are legitimate and 
necessary to the development of a Comprehensive Economic Development 
Strategy (CEDS) and would thereby be an allowable expense under the 
planning grant program?
    Response. As the provision (IFR Section 303.5) states explicitly, 
EDA recognizes that incurrence and reimbursement of administrative 
expenses such as insurance and rent will necessarily occur as part of 
its Planning Investments. The legitimacy of any Planning Investment 
expenses will be determined: (i) in accordance with applicable Federal 
cost principles; (ii) pursuant to an agreed scope of work for direct 
costs; and (iii) for indirect costs, as those costs are anticipated and 
integrated as part of a comprehensive CEDS budget.
    Please note that the same response is given to Senator Jeffords #6.

    Question 5. How does EDA plan to monitor and implement the new 
rules, in light of the recent 50 percent staff reduction in its 
headquarters office and now additional reductions of 50 percent at the 
regional and field office level?
    Response. EDA's staff levels have decreased from 434 employees in 
1985 to 170 or less in 2006--61 percent less. In 1999, EDA was 
authorized at 268 FTE, but had insufficient resources to support that 
staff level, and consequently initiated extremely austere budget 
controls and a reduction of staff through attrition. Additionally, in 
2004, EDA executed a headquarters restructuring which further reduced 
headquarters staffing and increased efficiency. As funds have continued 
to decline, EDA has continued staff reductions through attrition and 
just recently, through another buyout. A total of 28 staff members 
chose to take a buyout and retire, a 14 percent reduction.
    EDA's structure and processes were developed in past decades when 
the bureau had more extensive resources. In fiscal year 2006, EDA's 
challenge, and my challenge should I be confirmed, is to look 
internally to determine how EDA can evolve to sustain its high level of 
customer service but continue to operate within its available 
resources. EDA must focus its attention on utilizing automation and 
information technology, and target its resources on those steps of the 
process where human involvement will provide the most value. EDA will 
need to strategically place its resources to ensure that critical 
customer support is maintained while critical elements of our program 
are adequately managed and monitored. I look forward to working with 
you as we engage in this process.

    Question 6. In fiscal year 2005, Congress authorized $27 million, a 
$3 million increase, for the planning program. The extra funds were to 
be directed to existing and unfunded economic development districts, 
per the 2004 reauthorization act. Did EDA allocate these additional 
funds to EDDs? Can the agency provide a list of the organizations that 
received extra funding or new funding?
    Response. For fiscal year 2005, the additional planning funds were 
allocated to each Regional Office which had discretion on how to 
utilize the additional funds. EDA Regional Offices used these funds in 
a variety of ways, including increases to current EDDs and Indian 
Tribes, funding other planning organizations and the awarding of 
various short term planning grants.
    Please see Attachment A for detailed information by region.

    [GRAPHIC] [TIFF OMITTED] T8852.062
    
    [GRAPHIC] [TIFF OMITTED] T8852.063
    
    [GRAPHIC] [TIFF OMITTED] T8852.064
    
    [GRAPHIC] [TIFF OMITTED] T8852.065
    
       Responses of Sandy K. Baruah to Additional Questions from
                           Senator Voinovich

    Question 1. The interim final rule promulgated by the agency 
transforms the board makeup of district organizations from majority 
representation of public officials to majority representation of 
private sector officials. I understand that this requirement does not 
apply if state or local law requires that Economic Development District 
boards maintain majority public sector representation. Please identify 
those states that require Economic Development District boards to have 
majority public official representation.
    Response. EDA has heard and understood clearly from Congress and 
public comments on the Interim Final Rule (IFR) that revision of this 
provision is of fundamental importance to EDA stakeholders. EDA has 
therefore committed to working with its stakeholders to produce a Final 
Rule that addresses these concerns while maintaining a commitment to 
the public-private partnership that constitutes the necessary 
foundation of successful economic development. To manifest this 
commitment, EDA published on September 30th in the Federal Register a 
notice that delays for 45 days the effective date of this provision in 
the IFR, as well as the provisions pertaining to Investment Rate 
determination for its Planning Investments. EDA is also extending the 
public comment period for the entire IFR during this period. While EDA 
cannot commit to specific changes separate and apart from the 
regulatory process, the bureau pledges to work diligently with its 
stakeholders to understand and address their concerns.
    In the short amount of time allotted, EDA researched state and 
local laws and consulted with EDA stakeholders to formulate the answer 
to this question. To the best of our knowledge, the following states 
require or enable majority public official representation for Economic 
Development District boards: Arkansas, Florida, Illinois, Kentucky, 
Louisiana (for regional planning commissions formed in urbanized areas 
with a population greater than 50,000 persons), Maryland, Minnesota, 
Nevada, New Mexico, South Carolina, South Dakota (where an 
administrative or separate legal entity is formed pursuant to an 
intergovernmental agreement) Tennessee, Texas, Virginia, West Virginia.
    Please note that the same response is given to Senator Jeffords #5 
and Senator Clinton #2.

    Question 2. Section 300.2 of the interim final rule defines Private 
Sector Representative as a senior management official or executive 
holding a key decisionmaking position in a for-profit enterprise. It is 
my understanding that for-profit enterprises are ineligible to receive 
direct EDA public works or other assistance. In addition, it is my 
understanding that eligible recipients of EDA assistance are restricted 
to Indian tribes, state and local governments and not-for-profit 
organizations. In addition, since it is local governments that have the 
responsibility of maintaining local infrastructure, there seems to be a 
fundamental contradiction in mandating that for-profit enterprises 
control the governance structures of both district organizations and 
strategy committees of planning organizations. This appears to be a 
contradiction. Can you explain this? Further, since local governments 
will no longer serve as majority representatives on the boards of these 
organizations, will the private sector be responsible for providing the 
local matching funds for EDA planning assistance and public works 
investments?
    Response. EDA has heard and understood clearly from Congress, 
public comments on the IFR and others that revision of this provision 
is of fundamental importance to EDA stakeholders. EDA has therefore 
committed to working with its stakeholders to produce a Final Rule that 
addresses these concerns while maintaining a commitment to the public-
private partnership that constitutes the necessary foundation of 
successful economic development. To manifest this commitment, EDA 
published on September 30th a Federal Register notice that delays for 
45 days the effective date of this provision in the IFR, as well as the 
provisions pertaining to Investment Rate determination for its Planning 
Investments. EDA is also extending the public comment period for the 
entire IFR during this period. While EDA cannot commit to specific 
changes separate and apart from the regulatory process, the bureau 
pledges to work diligently with its stakeholders to understand and 
address their concerns.
    In response to the specific questions above, PWEDA explicitly 
states that Economic Development Districts are eligible recipients of 
EDA assistance, in addition to the entities listed in the question. 
EDA's IFR defines those District Organizations as public or non-profit 
organizations formed under inter-governmental agreements, State 
enabling legislation or a State's non-profit organizational statutes. 
The presence of private sector representatives on the District 
Organization's governing body, even in a majority, does not change the 
organizational character and purpose of that organization.
    Moreover, any board member, whether a private sector representative 
or public official, generally has a fiduciary duty to the organization, 
as set forth in that organization's enabling legislation, 
organizational statutes or organizational documents. Public or private 
sector representatives, even if they constitute a majority of the 
governing body, are required to fulfill that fiduciary duty in spite of 
any duty they have to the outside business or governmental entity they 
represent.
    Every District Organization maintains the flexibility to generate 
its matching share from any source it deems appropriate (including 
contributions from for-profit entities), so long as the matching share 
is available as needed and is not conditioned or encumbered in any way 
that would preclude its use consistent with the requirements of EDA 
Investment Assistance.
    Finally, it is important to recognize that the most effective 
economic development strategies are market-based and private sector-
led. At the end of the day, the private sector must be ready, willing 
and able to invest in a community in order for economic growth to 
occur. Close cooperation and buy-in from the private sector are needed 
to ensure that development efforts are best positioned to leverage the 
power of the private sector.

    Question 3. There has been concern that the interim final rule will 
eliminate the existing functions and operations of economic development 
district organization, which would appear to conflict with the intent 
of reauthorization legislation enacted last year. I understand that EDA 
feels it is in complete compliance with the law. However, '302.4 (Title 
13) of the current Federal regulations for EDA is almost entirely 
stricken in the interim final rule. The section specifically provided 
economic development districts with the ability to coordinate and 
implement economic development activities in the district, assist local 
governments in applying for grant assistance and carry out economic 
development related research, planning, implementation and advisory 
functions. It seems that the only remaining allowable operation of 
districts under the interim rule is the ability to contract out for 
services. If it is the intention of the agency to preserve the existing 
operation and activities of districts, can you explain why it was 
necessary to strike these provisions outlining district core functions 
and responsibilities?
    Response. None of the District Organization activities listed in 
the question are prohibited in the IFR. EDA intends through the IFR 
that District and other Planning Organizations will continue to conduct 
these and other activities as contemplated in a comprehensive, well-
considered and feasible Comprehensive Economic Development Strategy 
(CEDS), written by the Planning Organization. The CEDS must contain, 
among other things, a quantified plan of action for implementing the 
CEDS as well as performance measures by which to evaluate the 
organization's CEDS implementation.
    EDA did not include in its IFR the list of functions and 
responsibilities in its former regulations in order to encourage each 
Planning Organization to determine independently, creatively and 
critically the activities it will undertake through CEDS 
implementation. Economic Development Districts throughout our nation 
face radically different economic challenges which demand different 
responses. For example, the challenge of gradual but substantial out-
migration from rural North Dakota demands a different response from the 
challenge of substantial annual population inflows of immigrant labor 
into California's Central Valley. Rather than providing a federally 
mandated ``one-size-fits-all'' checklist of activities that might be 
interpreted as the standard for satisfactory performance of a District 
Organization, EDA believes that critical and continuous local 
evaluation and re-evaluation of a regionally tailored CEDS will produce 
more efficient--and more effective--allocation of each District 
Organization's resources, leading to beneficial economic outcomes for 
each District.
    Please note that the same response is given to Senator Clinton #3.
                                 ______
                                 
 Responses of Sandy K. Baruah to Additional Questions from Senator Bond

    Question 1. Within the EDA's Interim Final Rule, Section 301, which 
includes the investment rate process for determining the Federal and 
local match for planning assistance, how will the Census Bureau's 
American Community Survey (ACS) prove to be an adequate and efficient 
unit for determining the economic distress levels? If ACS contains the 
capability to base the need for planning assistance by determining the 
investment rate for the Economic Development Districts (EDD), how will 
EDA ensure that the Economic Development Districts do not receive a 
dramatic increase in their share of the Federal/local match when they 
may actually qualify for a larger Federal investment? It is important 
to note that many EDDs may not have the capacity to access ACS and 
efficiently determine that EDD's lack of economic viability.
    Response. The ACS does not in and of itself contain the capability 
to determine investment rates for planning or other EDA investment 
assistance. Rather, the ACS provides a technologically advanced data 
base of U.S. demographic data, continually updated and maintained by 
the U.S. Census Bureau to sustain statistical integrity. Where 
available, EDA personnel will use ACS demographic data to determine 
more precisely the economic distress levels of a particular region. 
This is intended to ensure that EDA determines its investment rates 
with reference to the most accurate economic data available. Where ACS 
data is not available, EDA personnel will use the most reliable Federal 
data available, from the U.S. Census Bureau, the Bureau of Economic 
Analysis, the Bureau of Labor Statistics, the Bureau of Indian Affairs 
or other Federal source. Absent reliable data from any of these 
sources, an applicant will need to provide the most recent economic 
data available through the government of the State in which the 
project's region is located. EDA's regional office staff will be 
available to assist stakeholders in the use of the ACS where necessary.

    Question 2. Within the existing regulations for EDA it is required 
that 20 percent of the governance board for and Economic Development 
District consist of private sector representatives. The EDA Interim 
Final Rule suggests that the district organizations and planning 
committees must have a majority of private sector representatives. Why 
must the governance board of an EDD which has proven to be efficient 
alter their current status to fit these regulations? Who will appoint 
these additional private sector representatives? What would happen to 
the representation of the local officials? As you are aware, the EDA 
reauthorization Act of 2004 states that it is necessary for local 
officials to maintain an ample representation. Why do you feel that 
there is a need to alter this representation?
    Response. EDA has heard and understood clearly from Congress, 
public commentators on the IFR and others that revision of the District 
Organization private sector representation provision is of fundamental 
importance to EDA stakeholders. EDA has therefore committed to working 
with its stakeholders to produce a Final Rule that addresses these 
concerns while maintaining a commitment to the public-private 
partnership that constitutes the necessary foundation of successful 
economic development. To manifest this commitment, EDA has on September 
30 published a Federal Register notice that delays for 45 days the 
effective date of this provision in the IFR, as well as the provisions 
pertaining to Investment Rate determination for its Planning 
Investments. EDA is also extending the public comment period for the 
entire IFR during this period. While EDA cannot commit to changes that 
it may make to these provisions separate and apart from the regulatory 
process, it will engage in extensive discussions with its stakeholders 
to understand and address their concerns.
    Finally, it is important to recognize that the most effective 
economic development strategies are market-based and private sector-
led. At the end of the day, the private sector must be ready, willing 
and able to invest in a community in order for economic growth to 
occur. Close cooperation and buy-in from the private sector are needed 
to ensure that development efforts are best positioned to leverage the 
power of the private sector.

[GRAPHIC] [TIFF OMITTED] T8852.001

[GRAPHIC] [TIFF OMITTED] T8852.002

[GRAPHIC] [TIFF OMITTED] T8852.003

[GRAPHIC] [TIFF OMITTED] T8852.004

[GRAPHIC] [TIFF OMITTED] T8852.005

[GRAPHIC] [TIFF OMITTED] T8852.006

[GRAPHIC] [TIFF OMITTED] T8852.007

[GRAPHIC] [TIFF OMITTED] T8852.008

[GRAPHIC] [TIFF OMITTED] T8852.009

   Statement of George M. Gray, Ph.D., Nominated to be the Assistant 
Administrator, Environmental Protection Agency, Office of Research and 
                              Development

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Bush's nominee to be Assistant 
Administrator for Research and Development for the United States 
Environmental Protection Agency (EPA). I am excited about the 
opportunity to enter public service, to work with Administrator Johnson 
and to advance the mission of EPA. I am also proud to introduce my wife 
Ann and my two children, Owen and Evelyn, who are here with me today.
    I am a scientist and I have spent my career working to apply the 
principles of science, quantitative analysis and risk communication in 
public health. My interests have always been with the application of 
science, putting knowledge to work to help make better decisions. This 
interest led me to graduate study in toxicology, the science that helps 
us identify and characterize human health and environmental hazards. 
Next, I was awarded a fellowship in the Interdisciplinary Programs in 
Health at the Harvard School of Public Health where I learned about the 
range of scientific data and knowledge needed to inform important 
decisions. I also saw how important careful consideration and 
characterization of scientific information is in public health. I have 
studied and taught this approach at the Harvard School of Public Health 
for over 15 years. I believe that my training and experience will 
enhance my ability to work with the dedicated scientists and 
professionals in ORD to advance its charge of providing scientific and 
technological support for EPA's activities.
    My work over the last 20 years has been, like the task of the ORD, 
both multidisciplinary and interdisciplinary. The ORD conducts research 
and analyses on a wide range of potential hazards from the health and 
ecological effects of biological and chemical hazards to water quality 
to homeland security. It takes the range of expertise in ORD, including 
biologists, engineers, physical scientists, mathematicians and 
physicians, to understand and characterize risk management solutions. I 
believe that more and more our environmental challenges will require 
cooperation and collaboration among scientific disciplines.
    My approach to addressing important public health and environmental 
concerns is to bring together the best information and people, from 
multiple disciplines, to provide an integrative solution. For example, 
I led the Harvard/Tuskegee BSE (Mad Cow) study commissioned by the USDA 
in 1998. Our goal was an evaluation of the potential for BSE to spread 
in the United States if it were introduced. This project involved 
integration of expertise from many disciplines from veterinary science 
to neurobiology to applied mathematics. It required collaboration with 
governments (U.S. and abroad), industry, and non-governmental 
organizations. Ultimately, our study provided useful information to 
inform policy decisions, guide research, and communicate BSE risk to 
the public. This spirit of integration and collaboration will guide my 
efforts at ORD.
    The EPA Office of Research and Development is organized around the 
risk assessment/risk management paradigm. I have extensive knowledge of 
risk assessment and the careful evaluation of science that is critical 
for sound decisions about human health and the environment. This 
understanding has given me opportunities to contribute to the 
interaction of science and government decisionmaking while serving on 
the National Advisory Environmental Health Sciences Council, the 
advisory body to the National Institute of Environmental Health 
Sciences and the Food and Drug Administration's Food Advisory 
Committee, Contaminants and Natural Toxicants Subcommittee.
    I am also a teacher and proud of my contribution to educating 
current and future environmental professionals. Doctoral students whom 
I have advised and students from my classes have gone on to work in 
academia, government, and the private sector. Several come from or 
joined the EPA, including the National Center for Environmental 
Assessment and Region V. Since 1995 I have developed and directed a 
mid-career short course on risk that regularly has a dozen or more 
class members from EPA with participants from FDA, USDA, NRC, and OSHA 
and numerous foreign countries. The rigor, balance, and practicality 
that characterize this course are the same attributes that will guide 
my efforts at ORD.
    Teaching is also about communicating, and I believe that 
communication is key to successful leadership, research, analysis, and 
protection of human health and the environment. I will strive to work 
with all of ORD's stakeholders to identify important issues and their 
scientific basis, to build understanding of ORD's mission and actions, 
and to get useful scientific information into the hands of decision 
makers. These stakeholders include legislators, the public, other parts 
of the government, the scientific community, the private sector and 
nongovernmental organizations.
    ORD has a critical responsibility in EPA's mission and, if 
confirmed, I will bring enthusiasm, knowledge and experience to 
supporting that role. At the same time, I will bring a fresh 
perspective to helping advance Administrator Steve Johnson's goals of 
using the best available scientific information to make decisions and 
working collaboratively to find effective solutions to environmental 
problems.
    Thank you very much for your consideration and I would be happy to 
answer any questions.
                                 ______
                                 
 Responses of George Gray to Additional Questions from Senator Jeffords

    Question 1. The EPA's Office of Research and Development (ORD) has 
had a controversial multi-million dollar contract to enhance it 
``strategic communications.'' Some have called this a waste of funds 
that should be devoted to research and others have questioned the 
legality and propriety of using tax dollars on ``corporate image 
enhancement.'' Do you think this was a good use of government funds? 
And if confirmed, what actions would you take with respect to this 
contract?
    Response. Communicating the results of Federally-funded research is 
very important to all audiences, including via both technical journals 
and other media. Effective communication of research results enables 
policymakers--from Agency regulators to individual consumers--to make 
informed choices. I am not familiar with the contract you ask about, 
but, if confirmed, I will look into this and other ORD communications 
activities to ensure they make appropriate and effective use of federal 
funds.

    Question 2. Do you plan to solicit corporate contributions to 
support ORD research and what limitations, if any, do you think are 
appropriate in seeking corporate participation in ORD research?
    Response. While I am not an expert on the Federal Technology 
Transfer Act, I believe this enacted legislation encourages the Federal 
government to enter into Cooperative Research and Development 
Agreements (CRADAs) with industry, consortia, academia, trade 
associations, and state and local agencies. Where mutually beneficial, 
if confirmed, I intend to fully utilize this authority while assuring 
that research is peer reviewed and meets high ethical standards.

    Question 3. Are you familiar with a recent GAO report on the lack 
of safeguards within EPA against conflicts of interest in soliciting 
corporate research joint ventures? If so, what is your response to this 
report? What steps do you intend to take to prevent conflicts of 
interest?
    Response. I am not familiar with this GAO report, but, if 
confirmed, I will work to ensure there are appropriate safeguards 
within EPA to protect against conflicts of interest in all respects, 
not just in the soliciting of joint research ventures.

    Question 4a. In a submission to the Office of Management and Budget 
on the subject of Peer Review procedures, you opposed a policy that 
required the disqualification of reviewers that had a conflict of 
interest:

          ``I prefer the notion of disclosure of potential conflicts of 
        interest, including work as an expert witness and institutional 
        funding, to strict rules of disqualification in the required 
        agency guidelines (Section 4(b)). Complete and widespread 
        disclosure will allow interested parties to make judgments 
        about the appropriateness of reviewers. Although I recognize 
        that it will sometimes be necessary and appropriate, 
        disqualification has the potential to raise questions of agency 
        bias in the choice of experts.''

    Do you intend to advocate suspending current conflict of interest 
requirements for EPA advisory committees?
    Response. I have no plans to change any of the current, widely 
accepted conflict of interest requirements for EPA advisory committees.

    Question 4b. Can you provide an example of where an exclusion of an 
advisory panel member for conflict of interest created the impression 
of ``agency bias in the choice of experts''?
    Response. Not having participated in any such agency decision, I 
cannot provide an example of where the exclusion of an advisory panel 
member for conflict of interest reasons created the impression of 
Agency bias in the choice of experts.

    Question 4c. You concede that it is sometimes ``necessary and 
appropriate'' to exclude experts based upon conflicts of interest. 
Please describe when, in your judgment, such exclusion is needed.
    Response. I believe it is appropriate to exclude a panel member 
based upon conflict of interest when one could reasonably assume that 
the conflict in question is likely to bias the panel member's review. 
Also, in borderline cases it may be most prudent to exclude a reviewer 
if the same technical expertise can be provided by another panel member 
who does not have a conflict of interest.

    Question 4d. Please explain why your more selective use of 
conflict-based exclusions does not raise greater concerns about 
``agency bias''?
    Response. Many, if not all, reviewers will have some potential 
conflicts, for example in terms of having received some federal or 
industry funding for their work. After all, it is in part through such 
funding that they are able to conduct the research that enables them to 
become experts. I believe the most important qualification for a peer 
reviewer is that he or she is technically well qualified to ably serve 
in this important capacity. Complete and widespread disclosure of 
potential conflicts of interest, including work as an expert witness 
and institutional funding, allows agencies to select the most 
technically qualified people to be peer reviewers.

    Question 5. According to internal employee surveys, there is a 
growing disconnect between scientists and managers within the research 
arm of the U.S. Environmental Protection Agency.
    What steps would you take to rectify this situation?
    Response. I am not familiar with the employee survey you cite, but, 
if confirmed, I will promote effective communication throughout ORD and 
across EPA, not just between scientists and managers.

    Question 6. Please describe what measures of success you would want 
your tenure at ORD to be judged.
    Response. If I am confirmed, I would like my tenure at ORD to be 
marked by ORD being recognized for conducting relevant, high quality, 
cutting edge research in human health and ecology and that the results 
of this research informed environmental decisions both at EPA and 
elsewhere.

    Question 7. In the past, you have supported centralizing peer 
review authority, perhaps in an office such as the Office of Science 
and Technology Policy. Is this your current view?
    Response. I don't have a position on this matter, but I will look 
into ORD's and EPA's current peer review procedures, including the 
practicality and value of a centralized peer review authority.

    Question 8. In 1998, you testified in a House Hearing on the 
Science of Risk Assessment. You stated that ``it is conservatism in 
risk assessment that can make us sorry.'' You are now being nominated 
to an agency whose mission includes the protection of sensitive 
subpopulations.
    Do you agree that it is appropriate for EPA to set standards that 
are protective of these subpopulations and are there processes that can 
improve how these subpopulations are accounted for in risk assessment?
    Response. I believe standards can be protective of vulnerable 
populations, while at the same time being informed by assessments that 
clearly communicate scientific uncertainties and probabilities. If 
confirmed as the AA for ORD, I commit to providing the Administrator 
and other EPA policymakers with the best risk assessment information I 
can, including the risks to different subpopulations and a full 
appreciation of the uncertainties inherent in the assessment. I will 
also work with the policymakers to set standards consistent with our 
existing environmental statutes.

    Question 9. At another House hearing in 2003, you stated that 
``policy is influencing EPA's science undermining the credibility of 
both the science and the decisions.'' However, you also recommended 
that the problems with Peer Review and Information Quality Guidelines 
could be solved by establishing a centralized body, perhaps in the 
Office of Science and Technology Policy, to choose experts to 'referee' 
the process to ensure that peer review comments are addressed 
appropriately and that the best analysis is made to support important 
decisions.
    Could you please explain how establishing a body within the White 
House would reduce political influence on science and what you would do 
if confirmed as head of ORD to shield EPA's scientists from political 
pressures?
    Response. No matter the organization and structure, care must be 
used to select peer reviewers that are technically qualified with no or 
disclosed conflicts of interest. Scientists' independence to interpret 
data and publish findings is crucial to maintaining scientific 
integrity. If confirmed as the AA for ORD, I commit to allowing ORD 
scientists to publish their findings consistent with the office's 
already rigorous peer review policy.

    Question 10. What will you do to improve the timely availability of 
scientific information for decision makers without jeopardizing the 
quality and credibility of agency analysis and how will you do it in a 
way that is useful for the regulatory programs?
    Response. One of the reasons I am interested in the position of AA 
for ORD is Administrator Johnson's personal commitment to ensuring 
strong science informs EPA decisions. In addition to conducting 
cutting-edge research, ORD has the responsibility to ensure scientific 
information is properly characterized in a timely manner for Agency 
policymakers. It does so both by serving on the Agency workgroups that 
formulate environmental policy options and by reviewing the scientific 
basis for the Agency's final decisions. However, to be relevant, 
scientific information should be provided to decision makers in a 
timely manner. If confirmed, I will work closely with colleagues across 
the agency to ensure ORD is involved early in the decisionmaking 
process and continues to perform this critical decision support 
function.

    Question 11. In order to assure the public that the trading program 
for mercury the Administration has issued is actually working, the 
Agency will need to devote considerable resources toward developing a 
system to monitor changes in mercury emissions, deposition, fish tissue 
concentrations and human and wildlife exposures. In addition, when it 
issued the regulation, EPA committed to monitoring ``hot spots'' or 
areas with high mercury fish tissue levels. While ORD doesn't run 
monitoring programs, ORD has a key role to play in designing such a 
system and in developing techniques and protocols for monitoring. 
However, the mercury budget for ORD is being dramatically cut back in 
FY2006 and is almost zero after FY2006. Will you commit to investigate 
the commitments for spending on mercury research and development and 
maintaining a mercury research budget adequate to support these 
activities?
    Response. I am not familiar with the Agency's budget for mercury 
research in FY 2006 or beyond. However, I am aware that ORD's mercury 
research program has greatly contributed to our understanding of 
mercury emissions and controls, deposition in waters, and uptake in 
fish. While it is not ORD's role to conduct monitoring, I agree that 
any mercury monitoring program must be carefully designed and if ORD 
can contribute to that design, it should. If confirmed, I will look 
into the ORD mercury research budget, and, consistent with other budget 
priorities, look to see where it can continue to make contributions.

    Question 12. When EPA was developing the mercury regulation for 
power plants, it did not look at the cardiovascular impacts of mercury 
exposure, even though others have found those impacts to be 
substantial. Specifically, research indicates that methyl mercury 
attenuates the cardio-protective impacts of fish oils. EPA staff had 
been preparing to convene scientists doing research in this area to 
advice the Agency on the appropriate use of this new information. That 
was abruptly cancelled by EPA political management citing lack of time. 
But now, EPA is reconsidering the rule and still no plans have been 
made to hold this meeting. Can you assure me that you will authorize 
career scientists in the Agency to convene a meeting of researchers who 
have published in this area to further advise the Agency?
    Response. If confirmed, I will look into this issue, recognizing 
that any potential for cardiovascular effects should be examined within 
the context of the entire mercury health effects database, and balanced 
against the cardiovascular benefits of eating fish.

    Question 13. There is some very interesting research that EPA's ORD 
in Steubenville, Ohio, showing very high mercury deposition near power 
plants. ORD management seems to be delaying the publication of this 
research by insisting on an extra level of peer review (in addition to 
the usual internal EPA peer review and external prepublication review) 
before the work can be submitted to a journal. If the work is to be 
considered as part of the reconsideration process, it needs to be 
published. Will you assure me that this work will not be subject to 
extraordinary review simply to delay its publication?
    Response. If confirmed, I will look into this issue. I am a firm 
believer in the importance of independent expert review. While assuring 
that necessary research is provided in a timely manner to decision 
makers.
                                 ______
                                 
 Responses by George Gray to Additional Questions from Senator Clinton

    Question 1. Can you please provide detailed information about your 
science background, in terms of both education and your professional 
career?
    Response. See Attached Curriculum Vitae.

    Question 2. What areas of environmental science do you think ORD 
should focus on over the next several years?
    Response. There are many important areas of research I think ORD 
should focus on, and if confirmed, I anticipate I will learn of others 
when I become more familiar with ORD's research plans. That said, some 
examples of research I believe ORD, along with other Agencies, should 
contribute to are: particulate matter--sources, effects, and controls; 
drinking water and water quality; using genomics and other techniques 
to test the potential impacts of new chemicals; using available 
observational data to inform national, regional, and local 
environmental decisions; emerging issues such as nanotechnology and 
decision support tools; and maintenance of the Integrated Risk 
Information System (IRIS) database.

    Question 3. What research areas do you think EPA should focus on in 
order to improve the Agency's emergency response capabilities?
    Response. Since September 11, 2001, ORD has developed unique 
expertise in the areas of building contamination and protecting water. 
I believe ORD should not only continue these areas of focus, but, after 
Katrina, should work with other Federal agencies to see how it can 
assist in responding to natural disasters in other ways as well. For 
example, the Katrina experience reinforces the need for addressing 
risks from microbial pathogens.
                                 ______
                                 
  Responses of George Gray to Additional Questions from Senator Boxer

    Question 1. Do you believe EPA should consider human dosing 
experiments with pesticides or other chemicals for regulatory purposes? 
If so, what safeguards and constraints would you support?
    Response. There are instances where human studies improve our 
understanding of the potential effects associated with regulated 
substances. Any research conducted by the government or considered by 
the government should meet very strong ethical standards, including the 
Common Rule, which identifies safeguards and constraints.

    Question 2. Do you believe there should be different rules 
governing EPA's performance or support of chemical experimentation on 
humans versus research conducted by industry? What is your rationale 
for any differences?
    Response. I believe all research should meet high ethical 
standards. As I stated above, it is my understanding that all Federal 
agencies, and those researchers conducting studies supported by Federal 
agencies, must abide by the Common Rule.

    Question 3. Do you support EPA conducting or supporting studies 
similar to the controversial CHEERS study recently canceled by EPA?
    Response. I understand that Administrator Johnson cancelled the 
study. Protecting the health of children is important to me, and I am 
interested in engaging in a dialogue on different approaches for 
improving our understanding of risks to children.

    Question 4. Do you agree that the financial and other incentives 
proposed in the CHEERS study could provide a powerful inducement for 
subjects to continue pesticide use around infants, particularly when 
subjects are recruited in economically disadvantaged areas?
    Response. I am not familiar with the financial and other incentives 
proposed as part of the cancelled CHEERS study. In general, I believe 
that observational studies should include a protocol for informing 
participants who are found to be experiencing high exposures. Any 
compensation for participation should be established at a level 
appropriate for the effort and not one that might encourage potentially 
harmful behavior by study participants.

    Question 5. Do you believe EPA should increase its reliance on 
chemical tests, including pesticide testing, on human subjects, rather 
than rely on animal or other models?
    Response. Epidemiologic, clinical, and animal studies, together 
with modeling, all contribute to our understanding of the potential 
effects associated with pollutants and inform environmental 
policymaking. I am very encouraged about EPA's computational toxicology 
efforts, which are devoted to using genomic and bioinformatics 
techniques to reduce testing in both animals and humans.

    Question 6. Do you believe that human tests must be statistically 
valid to be useful and must involve a sufficient number of subjects to 
be scientifically sound?
    Response. All studies must be carefully designed to test their 
hypothesis within the statistical precision needed to use the study 
results. The number of subjects needed relates to the confidence which 
is desired to conclude that the effect being tested for is real.

    Question 7. Have you ever been involved in a human subject 
experiment involving chemical testing? If so, please describe.
    Response. While in graduate school, I volunteered to be a subject 
in several studies of responses of the respiratory system to air 
pollutants.

    Question 8. Recently, EPA proposed new rules governing human 
testing. The proposal allows EPA to consider testing on pregnant women 
and children in some cases. How do you reconcile this with the ban on 
the use of these individuals as subjects passed by Congress earlier 
this year?
    Response. While I have not yet reviewed EPA's proposed new rules 
governing human testing in great detail, it is my understanding that 
the proposal would not allow intentional dosing of children and 
pregnant women. If confirmed, I will ensure that ORD's programs and 
practices are consistent with the laws established by Congress.

    Question 9. Several EPA scientists have spoken out against EPA's 
human testing policies. If confirmed, would you encourage ORD 
scientists to internally voice their concerns and publicly voice those 
concerns?
    Response. If confirmed as the AA for ORD, I would encourage ORD 
scientists to share with me their concerns on any matters, so that we 
could work together to address them.

    Question 10. Do you think neglected or abused children should be 
available for use as subjects of chemical tests? Do you believe that 
there are any concerns about consent by such children?
    Response. It is my understanding that the proposed rule does not 
allow intentional dosing of any children and pregnant women. Human 
studies should meet high ethical and scientific standards, including 
guidelines for consent.

    Question 11. Do you believe EPA's proposed rule on intentional 
pesticide dosing should be broadened to include prisoners?
    Response. Any human studies should meet high ethical and scientific 
standards. I look forward to further reviewing the proposal, and if 
confirmed, will carefully consider public comments on the proposal 
before providing specific recommendations for changes to the rule.

    Question 12. In 1998, you testified before the House Science 
Committee's Subcommittee on Energy and Environment. In this testimony, 
you were critical of the use of assumptions that protect public health 
during the risk assessment process. EPA uses health-protective 
assumptions when implementing many federal public health and 
environmental statutes. For example, the Safe Drinking Water Act 
integrates the use of safety factors to protect pregnant women and 
children during the process of setting drinking water standards. Please 
explain whether you agree with using conservative assumptions that 
protect public health when there is uncertainty during a standard 
setting process under the Safe Drinking Water Act, Federal Insecticide, 
Fungicide and Rodenticide Act and other public health and environmental 
statutes. If you do not agree, please explain your rationale.
    Response. If confirmed as the AA for ORD, I commit to providing the 
Administrator and other EPA policymakers with the best risk assessment 
information I can, including a full appreciation of the uncertainties 
inherent in the assessment. Wherever possible, risk assessments should 
be based on data and rely on other techniques only when data isn't 
available. In the absence of data, other techniques are available 
including expert elicitation, probability analyses, and modeling, in 
addition to making assumptions, conservative and otherwise. Whenever 
risk assessments are presented to policymakers, it is critical that 
risk assessors make known the assumptions and uncertainties in their 
assessments and their impact on the assessment's results.

    Question 13a. The U.S. Supreme Court's decision in Whitman v. 
American Trucking, 200 U.S. 321 (2001) cemented the principle that 
executive agencies may not require public health and environmental 
protections to meet cost-benefit analysis standards when the underlying 
statute does not require such analysis. Crucial protections to public 
health and environmental quality can be severely undercut when agencies 
inject speculative cost considerations at multiple points during a 
regulatory process.
    Do you agree with the principle established in American Trucking? 
If not, why not?
    Response. I agree with the principle established in American 
Trucking that executive agencies may not require public health and 
environmental protections to meet cost-benefit analysis standards when 
the underlying statute does not require such analysis.

    Question 13b. Do you commit to ensure that neither you nor any of 
your subordinates support a position that conflicts with the holding in 
American Trucking?
    Response. As stated above, I agree with the principle established 
in American Trucking, and if confirmed, will lead ORD accordingly.

    Question 14. On July 25, 2005, the Wall Street Journal reported 
that a growing body of scientific evidence demonstrates that tiny doses 
of even common chemicals raise extremely serious health concerns for 
children and developing fetuses. If confirmed, do you commit to 
examining the health effects on children and developing fetuses of 
potential endocrine disrupting chemicals, including perchlorate, 
bisphenal A, atrazine and phthalates? If not, why not?
    Response. It is my understanding that ORD has a long-standing, 
productive research effort devoted to endocrine disrupting chemicals 
(EDC). If confirmed, I will look into the ORD EDC research budget, and, 
consistent with other budget priorities, look to see where it can 
continue to make contributions.

    Question 15a. In March of this year, the Environmental Protection 
Agency revised their cancer risk guidelines. These guidelines allow the 
use of a formal process for outside parties to review EPA's initial 
determinations of the likelihood that a substance causes cancer. The 
guidelines refer to this process as ``expert elicitation.''
    Do you commit to ensuring that all such reviews are transparent and 
free of conflict of interests?
    Response. As stated above, I believe expert elicitation can be an 
important contributor to risk assessment where data are not available. 
It is also my understanding that the Agency has used expert 
elicitation. Therefore, if confirmed, I will look into the Agency's 
existing expert elicitation procedure and see how it addresses the 
issues of transparency and conflict of interest.

    Question 15b. Do you also commit to ensure that public health 
officials and experts without ties to industries that may have a 
conflict of interest are the preferred types of individuals to conduct 
such reviews? If not, why not?
    Response. The best people to serve as experts on an expect 
elicitation panel are those who are technically well qualified to do 
so. I believe it is appropriate to exclude a panel member based upon 
conflict of interest when one could reasonably assume that the conflict 
in question is likely to bias the panel member's review. Also, in 
borderline cases it may be most prudent to exclude a reviewer if the 
same technical expertise can be provided by another panel member who 
does not have a conflict of interest.

    Question 15c. Please describe the specific steps that you will take 
to ensure that the public [h]as an opportunity to substantively comment 
on the full range of options considered by any panel of private experts 
during the so called, ``expert elicitation'' process.
    Response. If confirmed, I will look into the Agency's existing 
expert elicitation procedure and see how it addresses the opportunity 
for the public to comment during the expert elicitation process. It is 
my understanding that the current process allows for the public to see 
the different options considered by the panel, without attribution of 
any option to a given panel participant.

    Question 16a. The media has reported that this administration has 
allowed political officials to dictate the presentation or suppress the 
dissemination of scientific information on global warming, endangered 
species, mercury emissions and other vital public health and 
environmental threats. You have an extensive history of working with 
industries, on behalf of, and in support of policies advocated by 
polluting industries. These same industries are or may be subject to 
regulations that rely on data produced by the EPA office that you are 
now nominated to lead.
    Do you commit to ensure that politics does not play a role in the 
development of the Office of Research and Development's research plan 
or the office's presentation or dissemination of information? If not, 
why not?
    Response. If confirmed, I commit that ORD's research plans will be 
consistent with EPA's overall research and development priorities and 
laws passed by Congress.

    Question 16b. Do you commit to take concrete steps to protect EPA 
scientists from intimidation? If not, why not? If you do, please 
describe the steps that you will undertake to foreclose on such 
conflicts of interest.
    Response. If confirmed, I will encourage ORD scientists to ``call 
it like they see it,'' consistent with ORD's established peer review 
policy.

    Question 16c. Do you also commit to ensure that individuals who sit 
on the National Academies of Sciences review panels do not have 
conflicts of interests with industries that could be impacted by 
analysis conducted by such panels? If you do, please describe the steps 
that you will undertake to foreclose on such conflicts of interest. If 
you do not, please explain why you think it is appropriate for 
individuals with actual or potential conflicts of interest to serve on 
such panels.
    Response. I believe it is up to the National Academy of Sciences to 
select the members who serve on their review panels, consistent with 
their conflict of interest procedures.

    Question 17a. The mission of the Office of Research and Development 
is to perform research, provide technical support, integrate the work 
of the office's scientific partners and to provide leadership in 
addressing emerging environmental matters and other issues. The 
office's mission is not to establish policy or advocate for particular 
policy positions.
    Do you commit to not promote particular policy positions in your 
role as the head of EPA's Office of Research and Development? If not, 
why not?
    Response. If confirmed as the AA for ORD, I will leave the policy 
choices vested in EPA's program offices, e.g., the selection of a 
maximum contaminant goal (MCG) or maximum contaminant level (MCL) for a 
drinking water contaminant, to the appropriate program office. However, 
I will promote particular policy positions on science policy issues, 
e.g., Cancer Guidelines.

    Question 17b. Do you commit to immediately alert my office and 
other members of Congress about attempts by industries, including 
entities who you are or were affiliated with, that urge you to advocate 
for a particular policy position? If not, why not?
    Response. Should I be placed in the position of being urged by any 
advocate--industry, NGO, or other--to promote a particular program 
office policy position, I will advise them that their efforts would be 
best spent elsewhere. I will report any unethical or illegal conduct to 
appropriate federal officials.

    Question 18a. The EPA's Integrated Risk Information System (IRIS) 
is a key resource for EPA regulatory decisions and is widely used by 
regulatory agencies in this and other countries. However, a recent 
report by the Center for Progressive Reform notes that IRIS's 
assessments are incomplete for a large number of chemicals regulated 
under the Clean Air, Safe Drinking Water and the Emergency Planning and 
Community Right to Know Acts. For example, IRIS is missing information 
on more than one-fifth of the Clean Air Act's hazardous air pollutants. 
The IRIS data on the other hazardous air pollutants is on average 
almost 12 years old.
    Do you commit to laying out a plan to speed up the review of IRIS 
assessments as head of ORD?
    Response. I believe the Integrated Risk Information System (IRIS) 
is a key resource for EPA and other policymakers, and, if confirmed, 
will look into the schedule for completing future assessments and plans 
for revising the IRIS process. I also believe that to be relevant, 
scientific information must be provided to decision makers in a timely 
manner.

    Question 18b. Please explain whether you agree or disagree that 
this plan should include an internal review process of eight months to 
one year and single or two-stage review process for internal and 
external peer review, rather than the current three-stage review 
process?
    Response. I am not yet prepared to comment on the details of the 
IRIS process. However, I am aware that the Agency is considering 
revising its IRIS process, and, if confirmed, look forward to learning 
more about, and contributing to, the Agency's plans.

    Question 18c. Do you commit to focusing the review of new chemicals 
on substances that are a high priority for EPA's regulatory programs, 
including hazardous air pollutants under the Clean Air Act?
    Response. It is my understanding that the Agency process for 
selecting chemicals to undergo an IRIS review already does this, 
consistent with available resources. If confirmed, I will work to 
ensuring the chemicals selected for IRIS review are those that are high 
priorities for EPA's regulatory programs.

    Question 18d. The Department of Defense recently suggested that EPA 
should make its IRIS review process even more lengthy and convoluted 
than it currently is by including DoD and other federal agencies in 
multiple levels of review prior to the document even being distributed 
by the public. Including these federal agencies in this fashion could 
not only further draw out the review process, it could also terribly 
distort the review process because some federal agencies--including 
DoD--have hundreds of billions of dollars of known liabilities at toxic 
waste sites. These sites are polluted with chemicals that undergo IRIS 
review which could strengthen or weaken cleanup standards.
    Do you commit to preserving the integrity of the IRIS review 
process by rejecting DoD and other agencies' efforts to integrate 
themselves into EPA's IRIS review process prior to public review?
    Response. As stated above, I am aware that the Agency is 
considering revising its IRIS process, and, if confirmed, look forward 
to learning more about, and contributing to, the Agency's plans. While 
it is good government for federal agencies to coordinate with one 
another, it must not compromise environmental safeguards or EPA's own 
decision-making authority.

    Question 18e. Do you commit to ensure transparency when any 
commenter with a conflict of interest comments on an EPA IRIS document?
    Response. Clearly, all commenters have particular interests, and I 
agree that for the sake of sound development of public policy in a 
democratic society, interests and their potential impacts on decisions 
should be appropriately identified and made transparent. If confirmed, 
I look forward to learning more about, and contributing to, the 
Agency's IRIS process, including how conflict of interest issues are 
handled.

[GRAPHIC] [TIFF OMITTED] T8852.010

[GRAPHIC] [TIFF OMITTED] T8852.011

[GRAPHIC] [TIFF OMITTED] T8852.012

[GRAPHIC] [TIFF OMITTED] T8852.013

[GRAPHIC] [TIFF OMITTED] T8852.014

[GRAPHIC] [TIFF OMITTED] T8852.015

[GRAPHIC] [TIFF OMITTED] T8852.016

[GRAPHIC] [TIFF OMITTED] T8852.017

[GRAPHIC] [TIFF OMITTED] T8852.018

[GRAPHIC] [TIFF OMITTED] T8852.019

[GRAPHIC] [TIFF OMITTED] T8852.020

[GRAPHIC] [TIFF OMITTED] T8852.021

[GRAPHIC] [TIFF OMITTED] T8852.022

[GRAPHIC] [TIFF OMITTED] T8852.023

Statement of Lyons Gray, Nominated to be the Chief Financial Officer of 
                  the Environmental Protection Agency

    Mr. Chairman, Senator Jeffords, and members of the committee, it is 
a privilege to appear before you today as the nominee for Chief 
Financial Officer of the U.S. Environmental Protection Agency. I would 
like to thank Senator Burr for his kind introduction, and I would like 
to introduce to you my family who are here with me today: my wife, 
Connie; our two daughters, Charlotte and Fraser; and our son-in-law, 
Cameron.
    It is a tremendous honor to have been nominated by President George 
W. Bush for a position responsible for safeguarding public resources--
both financial resources and natural ones. I'd also like to thank 
Administrator Steve Johnson for his faith in recommending me for this 
key position. EPA staff are well-known for their commitment to the 
Agency's mission of protecting human health and the environment. I 
share their commitment, and I pledge to you that if I have the honor of 
being confirmed, I will ensure that the Agency's environmental efforts 
are supported by sound financial management on behalf of the American 
people.
    I would like to tell you about some of my experience that I believe 
would be useful in the job for which you are considering me.
    At the beginning of my career, I worked in sales and marketing in 
the private sector, and I received an on-the-job education. With 
responsibility for introducing a new consumer product, I had to think 
through every aspect of the project from start to finish, from creation 
through delivery. This experience in corporate America taught me how to 
follow through on a project, considering all the relevant financial 
issues along with product development and delivery, and it gave me a 
solid foundation for every step I've taken since.
    It prepared me to own my own business. My experiences as a small 
business owner gave me an appreciation for the energy and business 
acumen that are needed to support a successful concern. If I am 
confirmed, I hope to bring the same energy and business sense to 
supporting EPA's successful operations.
    I would be honored if confirmed to the CFO position because it 
would allow me to return to the public sector. It was my great 
privilege to serve for 13 years in the General Assembly of the State of 
North Carolina. During that time, I was fortunate to serve as a Member 
of the House Finance Committee and as its Chair for 4 years. In that 
capacity, I participated in every aspect of the development and 
oversight of the $14 billion budget for the State of North Carolina and 
gained valuable experience in reconciling a range of priorities--all of 
them important--with available resources. I was closely involved in the 
State's budget process and especially with the work of the conference 
committee in which differences were worked out between the State's 
House and Senate. This experience has given me a genuine appreciation 
for the challenges of decisionmaking when public priorities are in the 
balance. If you honor me with confirmation, I look forward to working 
closely with you and the other Members of Congress who are charged with 
making similar hard decisions.
    Most recently, I have enjoyed the opportunity to work in the 
nonprofit sector, and this has allowed me to bring together what I have 
learned in both business and the State legislature for the benefit of 
my local community. As President of the Downtown Winston-Salem 
Partnership, I led an advocacy group to re-energize and rebuild what I 
think of as one of America's greatest downtown communities--although I 
admit that is because it is my home town. My responsibilities included 
the administrative leadership of a Downtown Foundation which raised 
funds to create a low-interest loan program which provided gap 
financing to get new restaurants, shops, and entertainment venues up 
and running. Apart from the great personal satisfaction of giving back 
to my community, I also took away from this experience a greater 
understanding of how financial and environmental issues can be 
addressed--together--to help revitalize American communities.
    Finally, it has been my great privilege to serve for the past 3 
years as Chairman of EPA's Environmental Financial Advisory Board, 
chartered under the Federal Advisory Committee Act. The Board provides 
advice and analysis to EPA's Administrator on how to pay for the 
growing costs of environmental protection and how to increase 
investment in environmental infrastructure through the leveraging of 
public and private resources. I am proud of the Board's work on behalf 
of the Agency, our principal client. The financial expertise of the 
Board's members is truly excellent, and the working relationship I have 
enjoyed with our Designated Federal Official, Stan Meiburg, has been 
equally so. If I am confirmed as CFO, I know that I will have the 
pleasure of working with dedicated people who share a commitment to 
EPA's mission.
    Mr Chairman, public service is a gift we give back to our country. 
I am very grateful for your time today and for the committee's 
consideration of my nomination. I would be pleased to answer any 
questions.

[GRAPHIC] [TIFF OMITTED] T8852.024

[GRAPHIC] [TIFF OMITTED] T8852.025

[GRAPHIC] [TIFF OMITTED] T8852.026

[GRAPHIC] [TIFF OMITTED] T8852.027

[GRAPHIC] [TIFF OMITTED] T8852.028

[GRAPHIC] [TIFF OMITTED] T8852.029

[GRAPHIC] [TIFF OMITTED] T8852.030

[GRAPHIC] [TIFF OMITTED] T8852.031

[GRAPHIC] [TIFF OMITTED] T8852.032

[GRAPHIC] [TIFF OMITTED] T8852.033

[GRAPHIC] [TIFF OMITTED] T8852.034

[GRAPHIC] [TIFF OMITTED] T8852.035

[GRAPHIC] [TIFF OMITTED] T8852.036

  Statement of H. Dale Hall, Nominated to be the Director of the U.S. 
                       Fish and Wildlife Service

    Mr. Chairman and members of the Committee, it is a great honor for 
me to be nominated by President Bush to be Director of the U.S. Fish 
and Wildlife Service. I am also honored to be here today before this 
Committee as it considers my nomination to lead the Nation's premier 
fish and wildlife conservation agency. If confirmed, I pledge to 
respectfully and responsibly preserve and promote our nation's fish and 
wildlife conservation heritage.
    I am a 27-year career employee of the Fish and Wildlife Service. 
Since 2001, I have been the Director of the Service's southwest region 
which includes the States of Oklahoma, Texas, New Mexico and Arizona. 
During my career with the Fish and Wildlife Service, I have worked all 
over the United States, in different regions, with State game and fish 
agencies, Tribes and non-governmental organizations on a myriad of 
issues. The partnerships and relationships that I have forged over the 
years have resulted in the support of my nomination by the Western 
Association of Fish and Wildlife Agencies and the International 
Association of Fish and Wildlife Agencies.
    Given my background, I bring certain qualifications, insights, and 
perspective to this position that I believe will benefit both the 
American public and the resources we are charged with conserving.
    I have a Bachelor of Science degree in biology, with a minor in 
chemistry, from Cumberland College in Williamsburg, Kentucky, and a 
Master of Science degree in Fisheries Science from Louisiana State 
University in Baton Rouge, Louisiana. As a native of Harlan County, 
Kentucky, I grew up wrapped in the arms of the Cumberland Plateau of 
the Appalachian Mountains in a culture that both respected and loved 
the natural resources and bountiful riches it provides for its people. 
Because of this, hunting and fishing have always been an important part 
of my life, not simply recreational pursuits. In my community, much of 
our food came from the fish and wildlife that lived in and around the 
Cumberland River. This culture instilled in me an understanding that 
the Creator gave us the gifts necessary to sustain our lives, but also 
the responsibility to ensure the care and stewardship of those gifts.
    During my career, I have had the good fortune to work in the Lower 
Mississippi Valley on bottomland hardwood and floodplain conservation, 
in the Pacific west on the Northwest Forest Plan and California Bay/
Delta partnerships, on Everglades restoration
    efforts, finding solutions to water management in the Rio Grande 
Valley, and in moving efforts forward toward the restoration and 
management of the Missouri River. Through my work, the most important 
lesson I have learned is that long-standing solutions to natural 
resource problems are not found in the exercise of governmental power 
alone. Rather, long-term solutions must always have a foundation built 
on collaboration with all interested constituents. Those interests are 
almost always diverse and that diversity can sometimes create 
significant challenges to finding a sustainable resolution. However, it 
has been my experience that when these challenges are approached with 
respect for all views, and a willingness to listen to the fears and 
concerns of others, positive outcomes result. I have found that the 
public truly cares about fish and wildlife resources and will develop 
and implement creative solutions to problems. However, this can only 
happen when we, as regulators, understand that we do not possess all 
the answers. I believe in the old adage that says ``real power can only 
be realized when it is shared and allowed to grow.'' By sharing power 
with our citizens, the future success of our nation's fish and wildlife 
resources is without limit.
    My career has afforded me the opportunity to work on the ground 
with fish culture on private facilities and in policy development for 
the Service's National Fish Hatcheries, and with our State and Tribal 
partners in the management of those fisheries. For example, I was 
intimately involved with a Louisiana Parish Police Jury in the 
establishment of the Tensas National Wildlife Refuge, and as Deputy 
Regional Director and Regional Director with such exceptional groups as 
the Friends of Ding Darling National Wildlife Refuge and the Friends of 
Bosque del Apache National Wildlife Refuge. I was also actively 
involved in acquiring project lands for the restoration of the 
Everglades and worked with partners at the South Florida Water 
Management District. My involvement in the resolution of the California 
Bay/Delta Accord allowed active and frequent interaction with 
agricultural, environmental, hunting and urban interests in pursuit of 
a long-term solution to Central Valley water management. These 
experiences have allowed me to participate in and understand the work 
of the Service at all levels of the organization, and to work with a 
variety of interests in natural resource management.
    For the last 14 years, I have been extensively involved in the 
implementation of the Endangered Species Act. The onslaught of lawsuits 
and procedural actions, rather than the direction of all available 
resources to management and improvement of habitat, has been a 
significant obstacle to achievement of the stated purposes of the 
Endangered Species Act. If confirmed, I will devote significant energy 
to addressing much needed policy direction and partnerships with other 
Federal land management agencies, States, Tribes, private land owners 
and non-governmental organizations.
    I cannot overstate the important role of regulation in the 
conservation of species and their habitats. However, I believe we 
should also maintain flexibility in our regulatory scheme as we commit 
to work with our partners to further the country's conservation goals 
while respecting individual rights. Too frequently, command and control 
regulation is invoked, which is often the result of a heavy litigation 
workload. However, we must continue our efforts to find the higher 
plane of cooperative partnership.
    I believe that one of the least recognized partners throughout our 
history has been the sportsmen and women of the United States. These 
passionate stewards have always been willing to ``foot the bill'' to 
ensure that we have healthy populations of game species, beginning with 
their role in waterfowl stamps, Sport Fish and Wildlife Restoration 
Acts in which they advocated a tax on themselves, and, currently, with 
our ``waterfowl'' joint ventures. Another steadfast partner in 
conservation has been the private land owner. Approximately 70 percent 
of all fish and wildlife habitat in the United States is in private 
hands. If we are to leave a legacy of conservation for future 
generations, we must engage these land owner stewards, the hunting and 
fishing community, Tribes, and others. Through this approach, I am 
extremely optimistic about the future of our natural resources.
    Finally, we must understand that the future of this Nation's 
natural treasures resides with our most important asset: the youth of 
America. We have significant opportunities to reach out to schools to 
educate young people about their natural resource heritage. My first 
exposure to natural resource management was as a 7th grader in Harlan 
County, Kentucky, when a Kentucky ``Conservation Officer'' visited our 
school and talked to us about our natural resource heritage. Until 
then, I had no idea that such a heritage existed. I am committed to 
increasing classroom visits to our National Wildlife Refuges, while 
working with our partners to find innovative means to bring the 
excitement of nature to our children. With the help of this 
Administration, the Congress, our State Game and Fish agency partners, 
and, most important, our citizen stewards, I believe a bright future 
awaits.
    Thank you, Mr. Chairman, and members of the Committee for 
considering my qualifications for this position. I will be happy to 
answer any questions you may have.
                                 ______
                                 
Responses of H. Dale Hall to Additional Questions from Senator Jeffords

    Question 1. As you know, this Committee is currently looking at 
ways to improve the Endangered Species Act. One important requirement 
of the Act is that the best available science be used in making listing 
decisions. During your career with the Fish and Wildlife Service you 
have had to make decisions based on best available science. There has 
been concern raised regarding your policy on genetics in endangered 
species activities. Can you explain that policy and your justification 
for not using genetics in listing decisions?
    Response. The policy guidance I issued focused on how the Region 
could apply new genetic information to a species that is already 
listed. The guidance recognizes that the Service has legal requirements 
to answer specific questions identified in the law prior to invoking 
any regulatory criteria. Nothing prevents recovery teams from 
determining that a newly identified genetic population merits 
protection or creates previously unidentified threats to the survival 
of the species. However, by law, the recovery process cannot be used to 
create a new listed entity or delisting criteria that have not gone 
through the analysis to answer the specific questions of the law. The 
Service as a whole is working to develop national policy guidance on 
the use of genetics in listing and recovery.

    Question 2. The national fish hatchery program has been critically 
underfunded in recent years. We have 2 fish hatcheries in my state and 
they are important for aiding in the recovery of Atlantic salmon. What 
is your view of the hatchery program and what will you do as Director 
of the Fish and Wildlife Service to continue the operation of these 
vital hatcheries?
    Response. Earlier in my career, I served as the Deputy Assistant 
Director for Fisheries in the Service's Washington office, where I 
became very familiar with the operations of our national fish 
hatcheries. The National Fish Hatchery System is critical to the 
nation's recovery and restoration of native aquatic species, including 
Atlantic salmon. The System also plays a vital part in the management 
of the nation's recreational fisheries. Although the System faces 
challenges, we are making progress in addressing annual and deferred 
maintenance requirements by focusing on mission critical water 
structures identified in the System's five year plan. The Service is 
working closely with its partners to develop a strategic plan, 
establish priorities, and focus funding on the most critical 
operational needs while also fulfilling constituent needs. One such 
plan, with our partners at the National Fish Habitat Initiative, would 
enhance and restore aquatic habitat to ensure that fish reared on 
national fish hatcheries are placed in healthy habitats.

    Question 3. In July 2002, you signed a Memorandum of Understanding 
with the state of Arizona relating to the Fish and Wildlife Service and 
the State's role in implementing the Endangered Species Act (ESA). What 
authorities have been delegated to the state of Arizona? What provision 
under the ESA provides the regional director with this authority?
    Response. The ESA Memorandum of Understanding does not delegate any 
authorities to the State of Arizona. The MOU recognizes the Arizona 
Department of Game and Fish as a partner in the management of fish and 
wildlife in the State, and, as such, the MOU is a tool that allows us 
to work more closely with that agency. The authority to work with the 
Arizona Department of Fish and Game comes from Section 6 of the ESA, 
which deals with Cooperation with the States, and provides for 
management, cooperative, and funding agreements with the States to 
protect and recover listed species.
                                 ______
                                 
 Responses of H. Dale Hall to Additional Questions from Senator Baucus

    Question 1a. Every year the State of Montana recommends summer 
reservoir operations that will minimize the impacts of drafting Libby 
and Hungry Horse dams in Montana on endangered bull trout and other 
resident fish, and that will contribute to recreation in the area. 
These recommendations are formally submitted to the ``Regional Forum'' 
process called for under the National Marine Fisheries Service 
Biological Opinion for listed salmon and steelhead. Each year, 
Montana's request is denied, apparently in response to objections from 
representatives of the U.S. Fish and Wildlife Service--Region 1 in 
Portland, Oregon. This furthers the perception that Montana's native 
fish are getting the short end of the stick relative to salmon when it 
comes to the management of the Columbia River Basin. Also, I am 
concerned that Region 1, which does not encompass the state of Montana, 
apparently has veto authority over proposals originating in Montana, 
without the input of Region 6.
    Additionally, these proposed changes to flow operations at Libby 
and Hungry Horse dams were adopted by the Northwest Power and 
Conservation council in its 2003 Mainstem Amendments to the Columbia 
River Basin Fish and Wildlife Program. These changes are also 
consistent with the recommendations made by the Bull Trout Recovery 
Team in its Recovery Plan. Again, these proposed operational changes 
have continually been denied, despite the fact that the potential 
benefits of flows from Montana reservoirs on the survival of salmon 
downstream are extremely difficult to measure.
    How would you address and resolve this apparent conflict between 
the needs of different endangered species in the same river system? Do 
you believe that one endangered species should be given a priority over 
another?
    Response. The recovery of multiple listed species in a river system 
as large and diverse as the Columbia River Basin is an extremely 
complicated endeavor involving numerous stakeholders, including two 
different regions of the Service, other Federal, State and local 
agencies, Tribes, power users, conservation organizations, private 
landowners and many other entities. Despite these complexities, I am 
committed to finding effective and efficient approaches to recover all 
endangered species in this important river system.
    The Service considers the bull trout population in Hungry Horse 
Reservoir, as well as Lake Koocanusa, to be stable. In fact, bull trout 
populations in these impoundments are increasing to the point where, in 
2003, the State of Montana requested the Service ease angling 
restrictions for bull trout on these waters to provide for recreational 
fishing opportunities.
    The Service recognizes the need to ensure that current and future 
reservoir management in the Montana portion of the Upper Columbia River 
Basin address instream flow needs for bull trout. We also appreciate 
the need to consider Montana reservoir operations within the larger 
context of the recovery of other endangered species, principally 
salmon, steelhead, and Kootenai white sturgeon, and the respective 
water needs for these species.
    Accordingly, Regions 6 and 1 have coordinated on this issue at 
field and regional levels to ensure that our recommendations for 
reservoir operations to support bull trout recovery in Montana 
complement the overall water management scheme for the suite of 
endangered fishes in the Columbia system downstream from Montana. If I 
am confirmed as Director, I will make it a priority to ensure that all 
Service Regions work together to ensure effective and balanced 
conservation for cross-regional species.

    Question 1b. The concentration of staff and resources in Region 1 
means that Montana issues are often handled by Region 1 staff who do 
not necessarily have knowledge of local conditions or of the true needs 
of resident species in Montana. Will you investigate the continued 
disparities in funding and staffing between Region 6 and Region 1, both 
in general and relative to the conflict between salmon and Montana 
resident fish? If necessary, will you advocate for the re-allocation of 
funding and/or staff resources between Region 1 and Region 6 so that 
the needs of Montana's resident species are adequately addressed, 
particularly relative to the needs of salmon?
    Response. Regions 1 and 6 work closely together on species of 
mutual concern, including salmon and other fish species that occur 
within both regions. The Service has worked to improve our recovery 
program, including the establishment of a process whereby high priority 
recovery needs of species can better be allocated and addressed by 
Service Regions. As we move into the upcoming fiscal year, I will work 
to ensure that the allocation of funding and staff resources is 
adequately balanced to recover high priority species, including cross-
regional species.
                                 ______
                                 
 Responses of H. Dale Hall to Additional Questions from Senator Chafee

    Question 1. What have been your most proud accomplishments during 
your tenure as Director of the U.S. Fish and Wildlife Service's 
Southeast Region? How will these experiences assist you in your new 
capacity as Director of the Fish and Wildlife Service should the Senate 
approve your nomination?
    Response. I am very pleased with the accomplishments of our 
outstanding employees in the southwest. We have significantly improved 
our relationships with the State Game and Fish Agencies resulting in 
excellent working partnerships throughout the Region. Our work with the 
Tribes of the southwest has also been very rewarding and has resulted 
in very strong relationships. However, the most important 
accomplishments of the Region have been improved communication and 
partnerships with counties, municipalities, and private land owners. We 
have worked very hard at building trust, the single most important 
ingredient in working with the public. I believe that good government 
is rooted in integrity and trust. This has been and continues to be our 
constant goal.

    Question 2. As you know, U.S. Fish and Wildlife Service issues in 
the West are often quite different than those in the New England region 
where land values are high, population pressures on delicate ecosystems 
are abundant, and our National Wildlife Refuges are often smaller in 
size, but of no less import. As the new Director, how would you work to 
balance differences between the regions, whether in terms of funding, 
land acquisition and management, or staffing decisions?
    Response. If confirmed as Director, I will work with the Service 
Directorate to ensure that allocations of funding and staffing are 
balanced and fully consider workload, performance, and priorities. Many 
opportunities avail themselves in the east to touch urban populations 
and educate our youth. I will work to address opportunities and 
priorities throughout the country.

    Question 3. How important do you believe the role of science is in 
decision-making processes related to implementation of the Endangered 
Species Act.
    Response. The role of science in decision-making under the ESA is 
absolutely essential. We must be honest about what we know, what we 
think we know, and what we don't know. Scientific integrity must then 
be brought to the questions of the law rather than the law being taken 
to meet the science. In my view, it is as unethical to ignore 
applicable science as it is to ``stretch'' science by saying ``since we 
don't know, let's use the law to protect until we do know.'' If we are 
to succeed under the ESA, the reputation of the Service must be one of 
honesty and truth.

    Question 4. In a letter from the Public Employees for Environmental 
Responsibility (PEER) to the EPW Committee regarding your nomination, 
you were criticized for instructing staff in the Southeast Region to 
omit genetic data from decisions related to threatened and endangered 
species protection and recovery. Would you explain what may have 
generated this criticism, and what your general position is on genetic 
data being used to make decisions related to the implementation of the 
Endangered Species Act?
    Response. The policy guidance I issued did not instruct biologists 
to ignore genetics. Rather, it focused on how the Region could apply 
new genetic information to a species that is already listed. The 
guidance recognizes that the Service has legal requirements to answer 
specific questions identified in the law prior to invoking any 
regulatory criteria. Nothing prevents recovery teams from determining 
that a newly identified genetic population merits protection or creates 
previously unidentified threats to the survival of the species. 
However, by law, the recovery process cannot be used to create a new 
listed entity or delisting criteria that have not gone through the 
analysis to answer the specific questions of the law. The Service as a 
whole is working to develop national policy guidance on the use of 
genetics in listing and recovery.

    Question 5. As this Committee continues to take a hard look at 
reauthorizing the Endangered Species Act, we have heard a great deal 
about the important role cooperative partnerships play in recovering 
federally-listed species. As Southeast Regional Director, what has been 
your experience with cooperative partnerships for bringing Federal 
agencies, States and local governments, landowners and the non-profit 
community together to resolve differences and move toward the common 
goal of recovering species?
    Response. The Endangered Species Act has 18 sections, only two of 
which identify prohibitions or penalties for violations. If the purpose 
of the Act (conservation of ecosystems and species) is to be 
accomplished, we must look to the largest reservoir of opportunity. In 
the United States, approximately 70 percent of all fish and wildlife 
habitat is in private ownership. In my years of implementation of the 
ESA, I have witnessed private land owners harvest trees before full 
attainment of their economic viability, mow fields to remove wildlife 
forage and plant pastures in non-native grass, all to avoid the 
possibility that a listed species may come onto their property. In my 
experience, these land owners want to have as much natural diversity on 
their property as possible, but they are concerned about the impacts of 
the ESA on their property.
    Our efforts in the southwest, and across the country, have been 
directed at addressing these concerns and giving willing land owners 
both protections against regulation and incentives to improve their 
property for imperiled species. In the southwest, we have partnerships 
with Arizona ranchers that cover nearly three quarters of a million 
acres; agreements with private land owners; partnerships with State 
land agencies and other Federal agencies in New Mexico to protect 
lesser prairie chickens and sand dune lizards; and numerous 
partnerships with land owners in Oklahoma that are restoring wetlands 
and grasslands at an impressive pace.
    I believe there is an unlimited potential to work with private, 
State and Tribal land owners to head off listings and recover those 
species currently listed under the ESA. Regulation can only ensure that 
habitat is not destroyed; it cannot require that habitat be improved. 
However, voluntary participation by land owners ensures that every acre 
under an agreement is improved for the benefit of fish and wildlife 
species. Accordingly, long term success rests with active cooperative 
partnerships where regulation is used as a measure of last resort for 
those that choose to disregard the law.

[GRAPHIC] [TIFF OMITTED] T8852.037

[GRAPHIC] [TIFF OMITTED] T8852.038

[GRAPHIC] [TIFF OMITTED] T8852.039

[GRAPHIC] [TIFF OMITTED] T8852.040

[GRAPHIC] [TIFF OMITTED] T8852.041

[GRAPHIC] [TIFF OMITTED] T8852.042

[GRAPHIC] [TIFF OMITTED] T8852.043

[GRAPHIC] [TIFF OMITTED] T8852.044

[GRAPHIC] [TIFF OMITTED] T8852.045

[GRAPHIC] [TIFF OMITTED] T8852.046

[GRAPHIC] [TIFF OMITTED] T8852.047

[GRAPHIC] [TIFF OMITTED] T8852.048

[GRAPHIC] [TIFF OMITTED] T8852.049

[GRAPHIC] [TIFF OMITTED] T8852.050

[GRAPHIC] [TIFF OMITTED] T8852.051

[GRAPHIC] [TIFF OMITTED] T8852.052

 Statement of Edward McGaffigan, Jr., Nominated to be a Member of the 
                     Nuclear Regulatory Commission

    Mr. Chairman, Ranking Member Jeffords, Members of the Committee on 
Environment and Public Works, it is a great honor to appear before you 
as President Bush's nominee for the Nuclear Regulatory Commission 
(NRC).
    As you know, this will be my third term on the Commission, if the 
Senate approves my nomination. I have appeared before this Committee 
and its Subcommittee on Clean Air, Climate Change, and Nuclear Safety 
on many occasions since Chairman Inhofe reinstituted regular NRC 
oversight hearings in July 1998. I believe that NRC has benefited 
greatly from that oversight, and I look forward to continued vigorous 
oversight, should I be confirmed.
    Mr. Chairman, I want to thank the Committee for the NRC-related 
legislation that was included in the Energy Bill enacted last month. 
This was the most far-reaching package of NRC provisions in more than 
two decades. They provide the Commission with tools to improve the 
safety and security of civilian nuclear facilities and more 
importantly, the personnel tools to manage what I see as the most 
significant management challenge facing the Commission in the years 
ahead: managing generational change.
    NRC recently announced that it plans to hire 350 new employees in 
fiscal year 2006. This will be a combination of experienced and entry 
level hires and will constitute more than 10 percent of NRC's total 
workforce in September 2006. This trend will continue for several years 
further as NRC faces twin bow waves, a bow wave of retirements 
estimated at about 7 percent of our workforce per year (about 220 
people/year), and a bow wave of new work primarily related to 
applications for the design certification of advanced reactors and for 
combined operating licenses for new reactors (about 100-150 people/
year).
    I can show you the first bow wave visually. The chart attached to 
my statement shows the age distribution of NRC's permanent employees on 
April 30, 2005 compared to September 30, 2000. Note that the peak 
population between the ages of 50 and 55 in 2000 has essentially moved 
5 years to the right. There is good news in the chart. NRC has been 
hiring young people over the past 5 years, and we are often quite 
successful in hiring experienced mid-career (mid-40's) individuals who 
find the challenge of NRC's work combined with the Federal benefits 
package attractive at that stage of their lives.
    I cannot show you the second bow wave because there is so much 
uncertainty about it. GE in late August submitted its application for 
certification of the design of the Economic and Simplified Boiling 
Water Reactor (ESBWR). Areva has indicated that it will apply for 
design certification for the Evolutionary Power Reactor (EPR) as soon 
as possible.
    Various utilities and groups of utilities have expressed interest 
in submitting combined operating and construction authorization 
licenses (COLs) within the next 2 to 3 years. The Energy Bill has 
created strong financial incentives for the first movers toward COL 
applications. The Commission will also face complex license 
applications for facilities such as the Duke/Cogema mixed oxide (MOX) 
fuel fabrication facility in late 2006, and could receive an 
application for construction authorization for the proposed Yucca 
Mountain repository as soon as April 2006.
    The bottom line is that the Commission will need to manage a large 
number of very important licensing activities over the next 5 years in 
a timely and efficient manner while losing many experienced staffers to 
retirement, including most of the senior career leadership of the 
agency. Senator Voinovich took the lead in granting the Commission 
every statutory personnel change the Commission requested in the Energy 
Bill. This Committee and the Appropriations Committee have supported 
the additional resources in fiscal year 2006 that the Commission 
requested. Now the job is the Commission's to manage this generational 
change at NRC, and to ensure that NRC emerges as strong or stronger to 
meet the challenges of the future. I hope to be part of the Commission 
as it faces these challenges. We have met similar challenges in the 
past in areas such as reactor license renewal, transfer of reactor 
licenses, and certification of dual-purpose spent fuel casks. To be 
successful this time, the Commission will need to ensure that funds for 
training new staff are protected against competing resource needs.
    Mr. Chairman, I would like to add a brief comment on the NRC career 
staff. They are the Nation's nuclear safety and security watchdogs. 
They bring unmatched scientific, engineering and legal expertise to 
bear to ensure safety and security at our civilian nuclear facilities. 
They are often criticized, sometimes sharply and personally, by those 
who do not prevail in NRC's regulatory processes, for making decisions 
or recommending actions consistent with the law, NRC's regulations, and 
sound engineering judgment. Perhaps no regulator will ever be loved, 
except by his or her family, but I would urge those interest groups who 
launch ad hominem attacks on the NRC and especially the staff to 
refrain in the future.
    Finally, Mr. Chairman, I will conclude on a personal note. I am the 
son of an Irish immigrant with four grades of education. He came to 
this country in the early 1920's, survived the Depression, volunteered 
at age 36 for the U.S. Army at the start of World War II, served in 
Europe, returned home to meet my mother, herself the daughter of Irish 
immigrants, marry her and raise a family by doing manual labor for the 
Boston Gas Company. He died far too soon from cancer in 1969, but by 
the time he died he had a son at Harvard, a daughter at Manhattanville, 
and a second son who would later enter West Point. I am grateful to my 
mother and my father (and my mother's father who lived with us until 
his death in 1970) for always encouraging us to dream big dreams and 
for teaching us that in this great country acting on those dreams with 
open eyes can make them possible.
    Mr. Chairman, I look forward to the Committee's questions.

   Responses of Edward McGaffigan, Jr., to Additional Questions from 
                            Senator Jeffords

    Question 1. When we met, we discussed the need for the Nuclear 
Regulatory Commission (NRC) to bring on at least 350 employees next 
year to keep up with attrition due to retirements. Do you think this 
can be accomplished, especially when the Commission is competing with 
private industry?
    Response. Yes, I do, but it is going to be a significant challenge. 
I should clarify that the need for 350 new employees in FY2006 is not 
just due to retirements. About 220 of the new employees will replace 
staff retirements. The remainder are additional employees to meet the 
NRC's expanding workload, particularly on advanced reactors.
    The NRC can compete for both young graduates and mid-career 
employees with the tools provided by Congress in the Energy 
legislation. NRC is recognized as one of the best places to work in the 
Federal government.
    Sustaining this level of hiring for four or five years will be an 
even greater challenge. But NRC must meet the challenge. Ensuring that 
all these new employees are fully trained and able to carry out their 
responsibilities is in my view the Commission's highest budget 
priority.

    Question 2. The NRC handles very complicated technical issues, and 
ones that deal with the control and regulation of nuclear materials. 
You have considered several of these, and the next few years will bring 
several more challenges. Much has been made of your response to the 
Princeton spent fuel study, which ultimately led to the Congressionally 
requested National Academy Report on spent fuel, and to the security 
legislation that was recently signed into law. Could you share your 
views about the type and scope of peer review you believe is needed 
when studies show that nuclear materials may be vulnerable to terrorist 
attacks?
    Response. I continue to believe that the Alvarez, et al study (the 
Princeton study) was a deeply flawed report, to which the passage of 
time has not been kind. To my knowledge there has been no effort in the 
Congress to embrace the study's fundamental recommendation, namely that 
the nation should launch a massive and costly effort to remove all 
spent fuel more than five years cooled from spent fuel pools and place 
the fuel in dry casks.
    The National Academy of Sciences report was a much more balanced 
effort. The Commission provided its comments on the Academy report to 
the Congress earlier this year in unclassified and classified forms. I 
endorse those comments.
    I should note that I regret that NRC got into a needlessly 
contentious battle with the Academy over classification of the 
Academy's study. When the issue finally rose to the Commission level 
early this year, the Commission was able to provide guidance that 
resolved the issue, I believe to everyone's satisfaction.
    As a general matter, I am a very strong believer in peer review. 
When classified, safeguards, or sensitive material is involved, the 
peer review process has to be limited to those with appropriate 
clearances and need-to-know. The Pentagon, the Department of Energy and 
other security and law enforcement agencies have faced this issue for 
decades. The National Academy of Sciences is one way to get scientific 
peer review on classified matters. NRC's Advisory Committees on Reactor 
Safeguards and Nuclear Waste provide another. The use of existing 
mechanisms in other agencies, such as the JASONs, is a third 
possibility.

    Question 3. As you know, there has long been tension at NRC over 
the need to inform the public about safety issues and the need to 
control access to safeguards information. The NRC approved a new policy 
on March 29, 2004 on security-related information. Commission voting 
records show that you differed with the recommendations of NRC staff 
when they recommended a more flexible policy on releasing security 
information to the public. At least some of your objections appear to 
stem from a concern that it might be costly and time-consuming to 
provide this information to the public.
    For example, you wrote in your explanation of the reasons why you 
rejected the staff's recommendation, that ``the staff will be pressed 
to reveal more information and to assure the public that despite these 
[security] deficiencies, the plant should not be shut down. Congressmen 
will feel compelled to write letters. Reporters will feel compelled to 
seek safeguards information. This will be a fool's errand, carried out 
time and time again, consuming staff and Commission resources in large 
quantities.''
    Do you view this solely as a question of resources and do you 
believe that NRC should limit public disclosure of even non-safeguarded 
security information because it might generate public or Congressional 
questions?
    Response. I do not see any conflict between keeping the public 
informed about safety issues, as opposed to security issues, and the 
need to control access to safeguards information under Section 147 of 
the Atomic Energy Act. Our reactor oversight process is by far the most 
open, transparent and timely evaluation of safety performance of any 
Federal safety agency.
    On security issues, there is a tension in keeping the general 
public informed, but no tension in keeping the Congress or State 
homeland security officials informed. I believe that the Commission, 
especially Chairman Diaz, has demonstrated a willingness in recent 
years to discuss the most sensitive security matters with the Congress. 
We have had two meetings with the Committee on Environment and Public 
Works in S-407 of the Capitol and many more with individual Members or 
groups of Members and appropriately cleared staff. We have kept the 
States fully and currently informed about any security deficiencies 
identified at the plants either through our baseline inspections or 
force-on-force exercises.
    I do not regard the issue of how open to be on plant-specific 
security issues to be a resource issue. The paragraph you cite from my 
vote only was included to rebut the claim that the staff proposal would 
save resources. Earlier in my vote I had expressed my fundamental 
problem with the staff proposal, namely that it would make information 
available to terrorists about security deficiencies at particular sites 
that every other agency of the Federal government protects from public 
disclosure, and rightly so. The option which the Commission chose 
provides full information on plant-specific security matters to Members 
of Congress and State homeland security officials. It was being 
implemented successfully by the NRC staff as of my June 30, 2005 
departure from the Commission.

[GRAPHIC] [TIFF OMITTED] T8852.053

[GRAPHIC] [TIFF OMITTED] T8852.054

[GRAPHIC] [TIFF OMITTED] T8852.055

[GRAPHIC] [TIFF OMITTED] T8852.056

[GRAPHIC] [TIFF OMITTED] T8852.057

[GRAPHIC] [TIFF OMITTED] T8852.058

[GRAPHIC] [TIFF OMITTED] T8852.059

[GRAPHIC] [TIFF OMITTED] T8852.060

[GRAPHIC] [TIFF OMITTED] T8852.061

  

                                  <all>

</pre></body></html>
